<html>
<title> - REAUTHORIZATION OF THE McKINNEY-VENTO HOMELESS ASSISTANCE ACT, PART II</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                 REAUTHORIZATION OF THE McKINNEY-VENTO

                    HOMELESS ASSISTANCE ACT, PART II

=======================================================================


                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   HOUSING AND COMMUNITY OPPORTUNITY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2007

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 110-70




                     U.S. GOVERNMENT PRINTING OFFICE

39-908 PDF                 WASHINGTON DC:  2008 
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 BARNEY FRANK, Massachusetts, Chairman

PAUL E. KANJORSKI, Pennsylvania      SPENCER BACHUS, Alabama
MAXINE WATERS, California            RICHARD H. BAKER, Louisiana
CAROLYN B. MALONEY, New York         DEBORAH PRYCE, Ohio
LUIS V. GUTIERREZ, Illinois          MICHAEL N. CASTLE, Delaware
NYDIA M. VELAZQUEZ, New York         PETER T. KING, New York
MELVIN L. WATT, North Carolina       EDWARD R. ROYCE, California
GARY L. ACKERMAN, New York           FRANK D. LUCAS, Oklahoma
JULIA CARSON, Indiana                RON PAUL, Texas
BRAD SHERMAN, California             STEVEN C. LaTOURETTE, Ohio
GREGORY W. MEEKS, New York           DONALD A. MANZULLO, Illinois
DENNIS MOORE, Kansas                 WALTER B. JONES, Jr., North 
MICHAEL E. CAPUANO, Massachusetts        Carolina
RUBEN HINOJOSA, Texas                JUDY BIGGERT, Illinois
WM. LACY CLAY, Missouri              CHRISTOPHER SHAYS, Connecticut
CAROLYN McCARTHY, New York           GARY G. MILLER, California
JOE BACA, California                 SHELLEY MOORE CAPITO, West 
STEPHEN F. LYNCH, Massachusetts          Virginia
BRAD MILLER, North Carolina          TOM FEENEY, Florida
DAVID SCOTT, Georgia                 JEB HENSARLING, Texas
AL GREEN, Texas                      SCOTT GARRETT, New Jersey
EMANUEL CLEAVER, Missouri            GINNY BROWN-WAITE, Florida
MELISSA L. BEAN, Illinois            J. GRESHAM BARRETT, South Carolina
GWEN MOORE, Wisconsin,               JIM GERLACH, Pennsylvania
LINCOLN DAVIS, Tennessee             STEVAN PEARCE, New Mexico
ALBIO SIRES, New Jersey              RANDY NEUGEBAUER, Texas
PAUL W. HODES, New Hampshire         TOM PRICE, Georgia
KEITH ELLISON, Minnesota             GEOFF DAVIS, Kentucky
RON KLEIN, Florida                   PATRICK T. McHENRY, North Carolina
TIM MAHONEY, Florida                 JOHN CAMPBELL, California
CHARLES A. WILSON, Ohio              ADAM PUTNAM, Florida
ED PERLMUTTER, Colorado              MICHELE BACHMANN, Minnesota
CHRISTOPHER S. MURPHY, Connecticut   PETER J. ROSKAM, Illinois
JOE DONNELLY, Indiana                THADDEUS G. McCOTTER, Michigan
ROBERT WEXLER, Florida               KEVIN McCARTHY, California
JIM MARSHALL, Georgia
DAN BOREN, Oklahoma

        Jeanne M. Roslanowick, Staff Director and Chief Counsel
           Subcommittee on Housing and Community Opportunity

                 MAXINE WATERS, California, Chairwoman

NYDIA M. VELAZQUEZ, New York         SHELLEY MOORE CAPITO, West 
JULIA CARSON, Indiana                    Virginia
STEPHEN F. LYNCH, Massachusetts      STEVAN PEARCE, New Mexico
EMANUEL CLEAVER, Missouri            PETER T. KING, New York
AL GREEN, Texas                      JUDY BIGGERT, Illinois
WM. LACY CLAY, Missouri              CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         GARY G. MILLER, California
GWEN MOORE, Wisconsin,               SCOTT GARRETT, New Jersey
ALBIO SIRES, New Jersey              RANDY NEUGEBAUER, Texas
KEITH ELLISON, Minnesota             GEOFF DAVIS, Kentucky
CHARLES A. WILSON, Ohio              JOHN CAMPBELL, California
CHRISTOPHER S. MURPHY, Connecticut   THADDEUS G. McCOTTER, Michigan
JOE DONNELLY, Indiana                KEVIN McCARTHY, California
BARNEY FRANK, Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    October 16, 2007.............................................     1
Appendix:
    October 16, 2007.............................................    69

                               WITNESSES
                       Tuesday, October 16, 2007

Bassuk, Ellen L., M.D., Associate Professor of Psychiatry, 
  Harvard Medical School, and President, National Center on 
  Family Homelessness............................................    54
Burt, Martha R., Ph.D., Senior Principal Researcher, Urban 
  Institute......................................................    59
Carter, Nancy, National Alliance on Mental Illness, Urban Los 
  Angeles........................................................    57
Culhane, Dennis, Ph.D., Professor of Social Policy and Practice, 
  University of Pennsylvania.....................................    28
Gallo, Dora, Chief Executive Officer, A Community of Friends, Los 
  Angeles........................................................    50
Gomez, Elizabeth, Executive Director, Los Angeles Youth Network..    35
Johnston, Mark, Deputy Assistant Secretary for Special Needs 
  Programs, U.S. Department of Housing and Urban Development.....     3
Loza, Moises, Executive Director, Housing Assistance Council.....    52
Mangano, Philip F., Executive Director, United States Interagency 
  Council on Homelessness........................................     5
Marquez, Mercedes, General Manager, Los Angeles Housing 
  Department, City of Los Angeles................................    30
McNamee, Arlene, LCSW, Executive Director, Catholic Social 
  Services, Diocese of Fall River, Massachusetts.................    32
Nilan, Diane, President/Founder, HEAR US, Inc....................    56
Roman, Nan, President, National Alliance to End Homelessness.....    37
Van Leeuwen, James Michael, Ph.D., Project Manager, Denver's Road 
  Home...........................................................    25
Yaroslavsky, Zev, Chairman, Los Angeles County Board of 
  Supervisors....................................................     8

                                APPENDIX

Prepared statements:
    Bassuk, Ellen L..............................................    70
    Burt, Martha R...............................................    77
    Carter, Nancy................................................    92
    Culhane, Dennis..............................................    98
    Gallo, Dora..................................................   104
    Gomez, Elizabeth.............................................   111
    Johnston, Mark...............................................   123
    Loza, Moises.................................................   128
    Mangano, Philip F............................................   141
    Marquez, Mercedes............................................   152
    McNamee, Arlene..............................................   161
    Nilan, Diane.................................................   182
    Roman, Nan...................................................   189
    Van Leeuwen, James Michael...................................   201
    Yaroslavsky, Zev.............................................   208

              Additional Material Submitted for the Record

Waters, Hon. Maxine:
    Statement of Family Promise..................................   213


                         REAUTHORIZATION OF THE



                        McKINNEY-VENTO HOMELESS



                        ASSISTANCE ACT, PART II

                              ----------                              


                       Tuesday, October 16, 2007

             U.S. House of Representatives,
                        Subcommittee on Housing and
                             Community Opportunity,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room 2128, Rayburn House Office Building, Hon. Maxine Waters 
[chairwoman of the subcommittee] presiding.
    Members present: Representatives Waters, Cleaver, Green, 
Sires, Murphy; Capito, Biggert, Shays, Neugebauer, Davis of 
Kentucky, and McCarthy.
    Ex officio: Representative Frank.
    Mr. Green. [presiding] Good morning, friends. I would like 
to call this hearing of the Subcommittee on Housing and 
Community Opportunity to order.
    I would like to thank the ranking member, Ms. Capito, who 
will be joining us shortly, for her efforts to help us--she is 
here now--have this hearing this morning.
    I would also like to thank the chairwoman, the Honorable 
Maxine Waters, who is not with us. She has another hearing. We 
know that wherever she is, she is not only doing the work of 
the House, but she is also doing God's work. She is truly a 
person who is committed to the homeless in this country.
    I would like to also thank all of the witnesses who are 
here with us today. At this time, I will make a brief opening 
statement, and then we will hear from the ranking member, and 
we will proceed in this fashion, and then hear from the 
witnesses.
    Friends, this is the second of two hearings on the 
reauthorization of the McKinney-Vento Homeless Assistance Act.
    This year marks the 20th anniversary of this Act. When 
Congress passed it 20 years ago, the legislation was thought to 
be the first step to help us end homelessness in America.
    We are here today to examine some additional steps that 
should be taken to end the plight of homelessness in America. 
With limited funding, the homeless assistance program has not 
been as beneficial as it can be, although some good things have 
happened.
    We will hear from witnesses today who will give us both 
sides of the story, and help us to make intelligent decisions 
about how we should proceed with ending homelessness in 
America.
    I would like to share some information with you about 
homelessness in America. Right now in this country, where 1 out 
of every 110 persons is a millionaire, we have approximately 
3.5 million people, 39 percent of whom are children, who are 
likely to experience homelessness in the course of a year.
    In our country, where we have houses for our cars--we call 
them garages, of course--on any given night, between 700,000 
and 800,000 men, women, and children are without homes or do 
not have shelter.
    We live in a country where we are spending $229 million per 
day on the war, and we have approximately 200,000 veterans on 
any given night who are homeless.
    In my county, Harris County, Texas, 28 percent of the 
homeless persons are veterans: 66 percent have no income at 
all; 59 percent are homeless because they have lost a job; 57 
percent have a history of substance abuse; 55 percent have a 
history of some sort of mental health problem; 11 percent have 
experienced domestic violence; and 24 percent have been 
incarcerated.
    Obviously, these numbers do not add up to 100 percent, 
which means we have overlapping. We literally have persons who 
are veterans, who may have some mental concerns to be dealt 
with. Persons who are suffering domestic abuse, who may have 
also a substance abuse problem.
    The problem is pervasive and merits our consideration. 
Today, as we look at the McKinney-Vento Homeless Assistance 
Act, there are four programs that are authorized by this Act: 
The emergency shelter grants, known as ESG; the supportive 
housing portion of the program; the shelter plus care program; 
and the Section 8 moderate rehabilitation assistance for single 
room occupancy dwellings. All four of these are parts of the 
Act that we will be looking into.
    There are two bills that we are considering. HUD has 
indicated that there may be a third bill. We have not seen 
evidence of it thus far, but there is an indication that it 
will be introduced.
    We have H.R. 40, which is the Homeless Emergency Assistance 
and Rapid Transition to Housing Act of 2007. This is being 
sponsored/introduced by Representative Carson and 
Representative Davis.
    We also have Senate Bill 1518, the Community Partnership to 
End Homelessness Act of 2007, introduced by Senators Reid and 
Allard. These two bills are the subject of discussion today. We 
look forward to hearing from the witnesses.
    At this time, I will yield to Ranking Member Capito, who is 
doing an outstanding job. She will be recognized for 5 minutes.
    Mrs. Capito. I want to thank Mr. Green for recognizing me 
and for chairing this committee today, and for his steady hand 
and great guidance in this area and other areas of housing. 
Thank you for that.
    I would like to take this opportunity to welcome Mr. 
McCarthy from the full Financial Services Committee to the 
Subcommittee on Housing and Community Opportunity. He has just 
joined us. He is a good California Representative; welcome to 
your first Subcommittee on Housing hearing.
    I just briefly want to say that we learned 2 weeks ago many 
of the issues concerning the reauthorization of the legislation 
before us. I look forward to the many witnesses who are going 
to be before us today. I thank you all for traveling to 
Washington. I look forward to the hearing.
    Thank you.
    Mr. Green. I will now recognize Mr. Cleaver for 3 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman. I thank you and 
Ranking Member Capito for having this hearing.
    Very quickly, I would just say that I am very much 
concerned about this issue because of the de-
institutionalization. We are finding that there are any number 
of men and women on the streets, sleeping under bridges, or 
sleeping along--in my State--the Missouri River.
    Each August, we do a stand down and miraculously, this 
year, we had about 600 homeless veterans show up--600. There 
was nothing in the newspapers. Nothing on television. Of 
course, they do not have either.
    Somehow, the word is able to circulate and they show up. We 
give some of them their one haircut of the year. We give them a 
breakfast. They see a dentist. They spend most of the day out 
there getting services.
    That is stop-gap. That is something that we do, and maybe 
it makes us feel better than the service we provide.
    The truth of the matter is we have to do something about 
this problem. This is the most powerful nation on the planet, 
and I think it is embarrassing that we have millions of 
Americans, particularly those who have gone out and fought for 
this country, sleeping under bridges and in cardboard boxes.
    I would reserve the rest of my time, Mr. Chairman, to raise 
questions with our witnesses. Thank you.
    Mr. Green. Thank you, Mr. Cleaver.
    At this time, we will hear from the first panel. We would 
like to welcome you. Our first witness will be Mr. Mark 
Johnston. He is the Deputy Assistant Secretary for Special 
Needs, U.S. Department of Housing and Urban Development. 
Welcome, sir.
    The second witness will be Mr. Philip Mangano, the 
executive director of the United States Interagency Council on 
Homelessness.
    The third witness will be Mr. Zev Yaroslavsky, the chair of 
the Board of Supervisors of Los Angeles County.
    We will now start with Mr. Johnston. We will recognize you 
for 5 minutes, and will proceed with the witnesses as 
announced.

  STATEMENT OF MARK JOHNSTON, DEPUTY ASSISTANT SECRETARY FOR 
 SPECIAL NEEDS PROGRAMS, U.S. DEPARTMENT OF HOUSING AND URBAN 
                          DEVELOPMENT

    Mr. Johnston. Congressman Green, Ranking Member Capito, and 
distinguished members of the subcommittee, I am Mark Johnston, 
the Deputy Assistant Secretary for Special Needs Programs at 
the U.S. Department of Housing and Urban Development.
    It is a privilege to represent the Department at this 
hearing today. I ask the subcommittee to accept the 
Department's written statement for submission to the hearing 
record.
    Mr. Green. Without objection.
    Mr. Johnston. Thank you.
    I am pleased to be here to discuss the Administration's 
proposed consolidation of HUD's three competitive programs into 
a single Continuum of Care program to alleviate homelessness in 
this country.
    I also want to thank the members of the Financial Services 
Committee for introducing the HEARTH Act, which includes a 
number of provisions supported by the Administration.
    We look forward to working with the committee on this 
important effort with the ultimate goal of getting a bill to 
the President's desk.
    Consolidation of these three programs would provide more 
flexibility to localities, give grant-making responsibility to 
local decisionmaking bodies, allow more funds for the 
prevention of homelessness, and dramatically reduce the time 
required to distribute funds to communities.
    HUD developed the Continuum of Care planning and grant 
making process in 1994. The continuum is an unique and 
comprehensive public/private partnership. It calls for all 
stakeholders within a community to be involved in shaping 
solutions to homelessness.
    These stakeholders include local government, nonprofit 
providers, businesses, foundations, and homeless persons 
themselves.
    The over 3,900 jurisdictions which participate in the 
Continuum of Care process represent over 95 percent of the U.S. 
population.
    Our bill would codify this approach, which was created by 
HUD through administrative means. A significant enhancement in 
this bill would add prevention as a new eligible activity under 
the statute. Prevention is a key part of solving homelessness 
and is an important element in our bill.
    In addition to preventing homelessness for those who are at 
risk, HUD now addresses, and would continue to address in the 
new program, the needs of persons who are already homeless, 
including the chronically homeless.
    The Administration set a goal of ending chronic 
homelessness. Through the Continuum of Care grants, HUD funds 
have been working to achieve this goal.
    The congressional requirement that 30 percent of HUD funds 
be used to provide permanent housing has contributed to these 
efforts.
    Through the consolidation process, HUD remains committed to 
targeting its homeless assistance resources to homeless 
families and individuals who are in most need of housing and 
services.
    HUD's preliminary review of proposals to expand the 
definition of ``homelessness'' indicates that the number of 
people who would become eligible for HUD's programs would 
increase significantly.
    Expanding the definition of ``homelessness'' beyond the 
current statutory definition would cause HUD's homeless 
programs to lose their focus on reaching those who literally 
have nowhere to sleep tonight.
    Further, the definition need not be expanded because with 
homeless prevention as a new eligible activity, communities 
could for the first time use Continuum of Care funds to serve 
those at risk of homelessness.
    The Continuum of Care approach encourages local 
performance. The grant application continues to have a 
performance section, the core of which is the Government 
Performance and Results Act indicators, by which Congress 
assesses HUD for the area of homelessness.
    HUD's GPRA efforts related to the Continuum of Care program 
have been touted by OMB as exemplary for other Federal programs 
to emulate.
    HUD's Continuum of Care program was rated ``Effective,'' 
which is the highest possible rating by the Program Assessment 
Rating Tool or PART. That rating underscores the efficacy of 
the Continuum of Care approach embedded in the HEARTH bill and 
the Administration's proposal.
    Performance will continue to be a key element of the new 
consolidated and more flexible program. Overall, consolidating 
the three Continuum of Care programs into one and codifying it 
in the statute will allow for greater local flexibility, which 
will enable improved local performance and effectiveness in 
using HUD's homeless programs.
    Thank you very much for inviting me to be here today. I 
look forward to more discussions on this critical issue.
    [The prepared statement of Mr. Johnston can be found on 
page 123 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Mr. Philip Mangano.

STATEMENT OF PHILIP MANGANO, EXECUTIVE DIRECTOR, UNITED STATES 
              INTERAGENCY COUNCIL ON HOMELESSNESS

    Mr. Mangano. Thank you, Madam Chairwoman, Ranking Member 
Capito, and members of the subcommittee.
    I am pleased to be here with so many who have done so much 
for homeless people, and pleased especially to be here on this 
panel with Mark Johnston, who has a long and distinguished 
career on this issue at HUD, and with County Chair Yaroslavsky, 
whom I have gotten to know in recent years. His deep and 
deliberate commitment to see change and results in Los Angeles 
County is commendable and needed.
    I bring you greetings from the full Council, 20 Federal 
agencies, and specifically from HHS Secretary Michael Leavitt, 
who is the Cabinet Chair of the Council this year in the 
rotation recommended by Congress.
    In my 27 years of involvement in this issue, I have never 
been more confident that Dr. King's great insight is applicable 
to homelessness, that the long moral arc of the history of our 
American experience, as he reminded us, bends toward justice, 
righting social and moral wrongs.
    He had seen that in his own lifetime as segregation was 
overcome and in the history of our country's abolition of 
slavery and the expansion of suffrage. That is our context, 
moving that arc into the lives of our homeless neighbors. The 
reauthorization of McKinney-Vento offers us an opportunity to 
move beyond what we were satisfied with 20 years ago to 
appropriate new ideas, resources, and results in bending that 
arc.
    Over the past 5 years, the United States Interagency 
Council has been ``constellating'' a national partnership with 
one goal, one objective, and one mission: ending the 
homelessness of our poorest neighbors.
    When the President set a new marker in front of the country 
asking us to end the homelessness of those who were the most 
vulnerable and disabled, those the researchers identified as 
experiencing chronic homelessness, the Council set out to bring 
Federal and State agencies together, along with local 
communities and the private sector.
    When we did that, some were skeptical. Now 4 years later, 
20 Federal agencies meet regularly in Washington; 49 Governors 
have created State Interagency Councils on Homelessness; and 
more than 300 local communities are partnered through their 
mayors and county executives in Ten Year Plans to End 
Homelessness, a partnership supported both by the U.S. 
Conference of Mayors and the National Association of Counties.
    With 6 consecutive years of increased Federal resources and 
more State and local resources, investments are being made to 
create results. That has precipitated an unprecedented 
involvement of the private sector in those local plans, and 
most importantly, more than 30 cities across our Nation, coast 
to coast, large and small, are reporting decreases in street 
and long term homelessness for the first time in 20 years.
    We are at a new place; the arc is bending. There is much 
more work to do for both individuals and families, but we have 
learned a lot in the past 20 years that is informing us as we 
move forward with reauthorization.
    We have learned that no one level of government and no one 
sector can do it alone. That if good intentions, well-meaning 
programs, and humanitarian gestures could get the job done, 
homelessness would have been history long ago.
    That field tested, evidence-based innovations can end 
homelessness, especially permanent supportive housing, along 
with employment and appropriate services.
    That jurisdictional leadership in business-oriented 
community based Ten Year Plans creates results. That cost 
benefit analysis reveals the economic impact and consequences 
of chronic homelessness. Crisis interventions, emergency rooms, 
or police sweeps are not the solution. They are expensive and 
ineffective in solving the problem.
    Prevention of homelessness is cost effective and requires 
many approaches for both individuals and families, and 
consumers have a role in planning and partnership.
    In the reauthorization, we support the following in the 
Administration: One, the Administration proposal along with the 
two congressional bills support the consolidation of homeless 
assistance competitive grants at HUD. That would provide 
flexibility for local communities, more focus on prevention, 
and customer friendly applications for the field. That just 
makes sense.
    Two, we should maintain and increase our emphasis on 
homeless veterans in every activity of the reauthorization. 
They deserve our priority.
    Three, we are close to completing the research on homeless 
families, which will become the basis for policy development 
and investment. Policy should wait for research and data.
    Secretary Leavitt opened the Council's mission and 
priorities in his call for renewed attention to families and 
youth, beginning with research and an inventory of current 
Federal resources.
    Four, as the central anecdote to end homelessness, the 30 
percent set-aside of HUD's resources for housing instigated the 
creation of tens of thousands of housing units specifically 
targeted to homeless people. That set-aside should be 
maintained.
    Five, and finally, having worked on behalf of homeless 
people, including in street outreach and shelters in a city 
creating initiatives for homeless families and advocacy, the 
definition of ``homelessness'' as it now stands at HUD, has 
been instrumental in targeting our finite resources to those 
who are the most vulnerable and disabled.
    That targeting and focus has not included doubled-up 
families, not under Secretaries Kemp, Cisneros, Cuomo, 
Martinez, or Jackson.
    There are needs there, but as Senator McKinney said last 
week, ``While it is admirable to want to address all people who 
are in need, I am concerned that this could lead to a thinning 
of resources.''
    We should instead be examining the use of mainstream 
resources of the Federal and local governments to respond to 
the needs of doubled-up families. In doing so, many more 
billions of dollars are available, as indicated in an 1999 GAO 
report on homelessness.
    We would also avoid the stigma of homelessness being 
applied to more mothers and their children.
    Finally, we are seeing results in our investments through 
Ten Year Plans. Again, 30 cities across our country have seen 
decreases on their streets and in their shelters. That is the 
trajectory of our national goal, to put to work for homeless 
people jurisdictional leadership, innovative ideas, and 
increased resources to the mission of reducing and ending 
homelessness in our country, beginning with those on our 
streets long term and in our shelters.
    What seemed intractable at the beginning of this decade is 
now yielding to strategic solutions and informed investments.
    McKinney-Vento reauthorization offers a new opportunity to 
re-evaluate and re-invest in what works.
    Thank you.
    [The prepared statement of Mr. Mangano can be found on page 
141 of the appendix.]
    Chairwoman Waters. Thank you very much. Our next witness is 
a friend and a colleague from Los Angeles. He is listed as a 
member of the Board of Supervisors, but he actually is the 
chair of the Board of Supervisors.
    I have known Zev Yaroslavsky for many years. When I served 
as chief deputy to a city councilman, he was elected to office. 
He served on the City Council for a number of years before 
going to the Board of Supervisors, and has a great reputation 
for dealing with the homeless issue in the greater Los Angeles 
area.
    I am delighted that you could be here today, Zev. Thank you 
very much.

  STATEMENT OF ZEV YAROSLAVSKY, CHAIRMAN, LOS ANGELES COUNTY 
                      BOARD OF SUPERVISORS

    Mr. Yaroslavsky. Thank you. Madam Chairwoman, and Ranking 
Member Capito, thank you for the invitation to testify before 
your subcommittee.
    Members of the subcommittee, I will just abbreviate my 
prepared remarks and give you a little taste of one county in 
the United States and how homelessness impacts it. It happens 
to be the biggest county in the United States, with over 10.3 
million people and an annual budget of $23 billion.
    On any given night in Los Angeles County, the overall 
homeless population is approximately 73,000. If the homeless 
were their own city in our county, they would be one of the 
largest cities in our county.
    There are three overarching factors contributing to 
homelessness in Los Angeles: First, a pervasive lack of 
permanent affording housing, not only a lack of supply but a 
diminution of supply, as we see an epidemic of demolitions of 
affordable housing taking place; second, insufficient resources 
and funding to help clients achieve and sustain self-
sufficiency; and third, severe psycho-emotional impairment of 
clients related to and exaggerated by substance abuse and/or 
mental illness.
    In recognition of these serious issues, our county has 
invested an additional $100 million this past year, over and 
above the many tens of millions we already spent on human 
services in a new homeless prevention initiative intended to 
strengthen homeless and housing services in our county.
    The goal is to enhance the regional system of care, connect 
all of the county's homeless programs, establish comprehensive 
services to prevent homelessness, and move homeless individuals 
and families to safe, permanent, affordable housing.
    In Los Angeles, approximately 22,000 persons are 
chronically homeless--22,000. Unfortunately, chronic 
homelessness is a complex, persistent, and long term problem. 
Perhaps the greatest barrier in addressing chronic homelessness 
is a lack of permanent supportive housing to address multiple 
issues of the chronically homeless.
    Studies show that supportive housing programs which link 
permanent affordable housing with supportive services to 
chronically homeless persons in need of public assistance and/
or services effectively reduce homelessness.
    This housing model improves housing stability and reduces 
the use of high cost public services. Additionally, placement 
of homeless persons with severe mental illness in permanent 
supportive housing is associated with reductions in 
hospitalizations, incarcerations, and subsequent use of 
shelters, emergency rooms, psychiatric, and detoxication 
programs. At the end of the day, this saves the public taxpayer 
a lot of money.
    In Los Angeles County, there is a growing interest in and 
commitment to the establishment of permanent supportive housing 
as a key strategy to reduce regional homelessness.
    The linkage of housing and supportive services requires 
partnerships which facilitate collaboration and coordination 
between housing development efforts in the 88 cities that make 
up our county, supportive services of the county, and resources 
of other governmental agencies and private entities.
    The complexities of pulling together housing developers, 
capital funders and organizations that can supply and finance 
the provision of permanent housing with supportive services 
will require extensive coordination and integration among the 
entities involved.
    One of the county's mandates is to promote State and 
Federal legislative and regulatory policy change that enable 
the creation of adequate funding streams for permanent 
supportive housing, to include but not limited to, pre-
development and operational expenses, and additional resources 
for county supportive services for homeless individuals and 
families, and those at risk for becoming homeless.
    For these reasons, Los Angeles County strongly supports the 
inclusion of resources to advance the development of permanent 
supportive housing, which incorporates funding for ongoing 
support of services for chronically homeless persons, including 
those who are elderly, disabled, and mentally ill, in the 
reauthorization of McKinney-Vento.
    The county strongly supports provisions that would expand 
the use of grants to fund homeless assistance and homeless 
prevention services, increase resources to advance the 
development of permanent supportive housing, including ongoing 
funding for supportive services, and appropriate $2.5 billion 
for homeless assistance grants in Federal Fiscal Year 2008.
    Madam Chairwoman, if I could just take one more second on a 
personal note.
    Chairwoman Waters. Yes.
    Mr. Yaroslavsky. I got really focused on this issue several 
years ago, viscerally as opposed to intellectually focused, 
when my daughter, who was in a summer between the years at the 
Kennedy School getting her master's was working for the City of 
Oakland in the Department of Human Services.
    She called me one night and she said, ``Dad, an interesting 
thing happened to me today, I wanted to share it with you.'' I 
asked what it was. She replied, ``I was walking up Telegraph 
Avenue in Berkeley and there was a homeless person sitting on 
the curb. I sat down next to him and I talked to him for 20 
minutes, and we talked about issues and what was troubling him, 
the whole 9 yards.
    ``At the end of 20 minutes, I opened my purse, dad, and I 
was going to give him a couple of bucks, and he said, `I do not 
want your money. You have given me something far more valuable. 
You have given me respect and dignity, for which I am 
appreciative.' ''
    Then she said, and this is what lowered the boom on me, she 
said, ``Dad, we sat there for 20 minutes and not one person of 
the dozens and dozens who walked by ever made eye contact with 
either him or me.''
    The reauthorization of this bill, Madam Chairwoman, is 
America's way of saying we are going to make eye contact with 
this issue and with these people. These are individuals, 
people. We have 73,000 homeless in Los Angeles County. Let us 
start with one. Each one is God's creation. Each one is a human 
being with a story about whom a book could be written.
    This is our opportunity to make eye contact with each and 
every one of them. Thank you.
    [The prepared statement of Mr. Yaroslavsky can be found on 
page 208 of the appendix.]
    Chairwoman Waters. Thank you very, very much. That was 
powerful testimony.
    I would like to thank each of you for the testimony that 
you have given today, and I now recognize myself for 5 minutes 
for questions.
    It has struck me as I have observed effective programs, 
especially permanent supportive housing, that one of the keys 
to success is the provision of flexible, accessible supportive 
services.
    However, it seems that a particular homeless individual or 
family often requires a range of services, and further, does 
not always fit into the neat categories that public 
administrators of services fund and construct in distributing 
their funds.
    I wonder if I might hear about any lessons learned or keys 
to success in overcoming these sorts of bureaucratic and 
administrative obstacles to efficient services funding?
    This is kind of a convoluted, almost question. Let me just 
say to Zev, we are confronted with this homeless problem in Los 
Angeles, which you have so adequately described. Go to downtown 
Los Angeles, right near City Hall, onto some of the side 
streets, and it just blows your mind.
    I know both county elected officials and the city elected 
officials have done a number of things to try to eliminate 
homelessness and to provide services to get people off the 
streets.
    It seems to me there is a discussion going on about 
resources being provided to the temporary facilities, because 
people need some place to sleep at night, as opposed to 
resources going to permanent housing for the homeless.
    There seems to be a debate going on somewhere underneath 
all of this. Can you share with me and unfold for me what is 
happening? Even though we are talking about the entire country, 
right now, I am focused on Los Angeles, Los Angeles County.
    What is going on with this debate?
    Mr. Yaroslavsky. Madam Chairwoman, I think there are a lot 
of people in recent years who focused on shelter, if I can 
steal a line from Mr. Mangano. It was really in the spirit of 
managing rather than solving the problem.
    I think we need to make the distinction between managing 
and solving the problem. Shelter is managing the problem. 
Permanent housing is solving the problem.
    If you want to end homelessness, you have to take the 
``less'' out of ``homeless.'' You have to provide a home, then 
you are not homeless. If you do not provide a home for the 
homeless, they are going to be homeless.
    It is just that simple. The goal has to be--I think our 
county's thinking has evolved very rapidly, thanks to seeing 
what is going on in other parts of the country and even in our 
own county has evolved very rapidly into believing that our 
focus needs to be on permanent supportive housing. That is the 
only way to solve the problem.
    That is not to say that in the short term that we are not 
going to have winter shelter programs, for sure, we will. It is 
not to say that between now and the time we wrap up more 
supportive housing in some of the 88 cities of our county, 
starting with the City of Los Angeles, which is our biggest 
city, but there are others that are quite large, as they ramp 
up their supportive housing construction and hopefully stop the 
demolition of affordable housing so that we do not compound our 
problem, while that is being ramped up, that we will provide 
temporary or transitional housing.
    Our goal has to be and I think our thinking is permanent 
supportive housing.
    Chairwoman Waters. Thank you very much, Zev. I really 
appreciate that.
    Now Ranking Member Capito, for 5 minutes.
    Mrs. Capito. Thank you, Madam Chairwoman.
    First of all, I would like to ask Mr. Johnston a question. 
You talked about consolidating programs within HUD and how that 
will make the process much more fluid, and easier to access.
    We had a penel 10 days ago, with someone from my district, 
West Virginia, representing rural America and rural 
homelessness. It is a lot different from Los Angeles. How will 
this consolidation help those folks who are trying to meet the 
challenge of rural homelessness?
    Mr. Johnston. A very good question. A couple of 
observations. The first is that we recently did an analysis to 
look at rural America in terms of how well do with getting HUD 
competitive homeless funding.
    We looked at all continuums across the country versus those 
continuums that are rural. The same percentage of rural 
continuum applications that score high enough to get our 
funding is essentially exactly the same as the percentage of 
all continuum applications that score high enough to get our 
funding. We have a very high scoring level to receive this 
funding because there is so much demand.
    I was very impressed that in rural areas, they compete 
frankly very, very well.
    I think one of the benefits of the proposal, both in the 
HEARTH Act as well as the Reid Bill and the Administration's 
proposal, is to add prevention as an eligible activity.
    In many rural communities where there are not shelters and 
certainly people are not on the streets, there certainly is 
still a need to be addressed. We think adding prevention as a 
new eligible activity, which is not allowed currently under 
law, would go a long way to address the needs within rural 
communities.
    Mrs. Capito. Thank you. Mr. Mangano, you represent an 
interagency outlook, a more overarching outlook on 
homelessness. It seems the crux of a lot of the debate that we 
are going to be having as we move through this legislation is 
the definition of ``homelessness'' and whether to expand it and 
include other forms of homelessness or other definitions.
    When you look at the different agencies, like the 
Department of Education has a different definition than HUD, do 
you see this as a problem having conflicting definitions within 
very large Federal agencies?
    Mr. Mangano. As this issue became more pointed in our 
country, actually the Council convened its member agencies, the 
20 Federal agencies, and we looked through the various 
definitions that are available at the different Federal 
agencies.
    What we discovered was actually the majority of Federal 
agencies, including Veterans' Affairs, HUD, FEMA, and a variety 
of other agencies, the majority of Federal agencies use the 
definition that HUD uses, and there are other Federal agencies, 
Agriculture, the Health Care for the Homeless program at HHS, 
Justice, and Education, that use other definitions.
    In fact, in terms of the conversation on this, the 
definition that HUD uses is the most commonly used definition 
with Federal agencies.
    I think we are faced with the notion of finite resources 
targeted to those people who are the most vulnerable, and the 
efforts that have been made across Administrations for many, 
many years, from my earliest involvement in this issue back in 
1980 to today, every HUD Secretary has had the exact same 
position on this, which is the definition of HUD is the 
appropriate definition for the investment of HUD resources.
    Mrs. Capito. Thank you. One final question. You had 
mentioned in your remarks that you are doing a survey. I think 
you said, do not let the policy get in front of the facts or 
something of that nature.
    Are you all conducting right now a survey of homelessness? 
Is my understanding correct?
    Mr. Mangano. That was specifically on family homelessness, 
part of the effort that we have been making on the issue is to 
conform the creation of policy to the President's management 
agenda, which asks that any Federal investment be data and 
research-driven first, performance-based, and then results 
oriented.
    We need to start with the data and the research. We had 
very good data and research on people experiencing chronic 
homelessness which led to the President prioritizing that as 
one of our objectives.
    Now we are gathering the data and research under the 
leadership of Secretary Leavitt, who is the chair of the 
Council this year. We are gathering that data and research on 
families.
    In fact, outside of government. Dr. Culhane, who will be on 
a panel coming up, has completed some research specifically on 
homeless families, and there is a federally funded research 
effort going on specifically on homeless families as well.
    I think our sense is we need to gather together that 
research and the data that is associated with it, and what 
investments are already being made from the Federal Government 
with regard to homeless families, take a look at all of that, 
and then out of that, create policies, and then make the 
investment in those policies.
    Mrs. Capito. Thank you. Thank you, Madam Chairwoman.
    Chairwoman Waters. Thank you very much. I recognize the 
gentleman from Missouri, Mr. Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Madam Chairwoman.
    One of my concerns is frankly HUD has not, in my 
estimation, been as strong an advocate in many areas as many of 
us would have liked. Whenever I hear HUD talking about 
consolidation, I tremble. As you know, we had to fight off 
consolidation last year, 18 department heads into the 
Department of Commerce. That creates some paranoia, Mr. 
Johnston.
    Is there a word of comfort?
    Mr. Johnston. There is. There are several words of comfort, 
actually.
    Mr. Cleaver. I would like a word.
    [Laughter]
    Mr. Johnston. All right. If you look at HUD's request, that 
is the Administration's request for homeless funding over the 
last 5 years, you are going to see increases every year.
    We have had a 41 percent increase in funding for HUD 
homeless programs since 2001. Just in the last 2 years, we have 
had a 20 percent increase. We put our money where our mouth is 
in a sense.
    If you look at our 2008 proposal, which would consolidate 
these programs, it came attached to a budget that will increase 
significantly the homeless budget at HUD.
    The 2007 level is at $1.44 billion. We are asking for 
nearly $1.6 billion.
    We do not look at consolidation as a way to save money. We 
are looking to put more money into this very good investment.
    Mr. Cleaver. Thank you. We are friends. Thank you.
    [Laughter]
    Mr. Cleaver. The final question is, would you agree that 
there is some confusion in the Federal Government about what 
the word ``homeless'' means? We have homeless programs in a 
number of Federal agencies. I am not sure that we know what it 
is. I am not sure that there is a definition used by the United 
States Federal Government to define ``homelessness.''
    We have the Department of Education. We have Veterans' 
Affairs. We have Labor, Homeland Security, and FEMA.
    Is there something that all of us can agree on, and if not, 
do we need this committee to define ``homelessness?''
    Mr. Johnston. From my vantage point, there are essentially 
two Federal definitions of ``homelessness.'' Both are provided 
by Congress.
    One is provided to the Department of Education and is also 
used by Health Care for the Homeless at the Department of 
Health and Human Services, which includes persons who are 
living outside, persons who are in homeless facilities, and 
most significantly, persons living doubled-up with others.
    The definition that is provided to HUD in statute and is 
also given to the other agencies that Mr. Mangano referred to, 
is a little bit narrower than that. It includes number one and 
number two but not number three. That is persons living 
outside, and persons living in homeless facilities. It does not 
add persons living doubled up.
    I think it was intentional that Congress did that, that 
expanded the definition for Department of Education, for 
instance, and not for HUD.
    From my perspective, at the Department of Education, the 
mandate is a very important and narrowly targeted focus of 
helping ensure that children attend school.
    For HUD, the definition implies and requires HUD to have a 
very broad mandate, that is to provide emergency shelter, 
transitional housing, permanent housing, and a whole array of 
supportive services, such as mental health treatment, drug 
treatment, day care, food, etc. We are also charged by law to 
not just serve one narrow slice of the population but all 
homeless persons.
    I think from my perspective, it is intentional, and I think 
it makes sense, that there are two essentially different 
definitions of ``homelessness.''
    I think the bridge to narrow that gap is homeless 
prevention. If in the consolidation bill, you were to add 
homeless prevention as an eligible activity, then those persons 
who are doubled-up, who are not homeless, could still get the 
assistance they need.
    Mr. Cleaver. Thank you, Madam Chairwoman.
    Chairwoman Waters. You are welcome. Mr. Shays, the 
gentleman from Connecticut, for 5 minutes.
    Mr. Shays. Thank you. I would like to ask all three of you 
about this issue which we sometimes do not seem to want to talk 
about. I really wrestle with how I integrate my concern for the 
homeless and what I feel my obligations are for the homeless, 
and that is illegal immigrants.
    It astonished me. One of you mentioned all the reasons for 
homelessness, and illegal immigration never came up. Is that 
because it is a topic we do not talk about or is that because 
you think it is irrelevant?
    I would like to ask each of you.
    Mr. Johnston. I guess I will begin. It certainly is not an 
irrelevant topic. We do not have great data on illegal 
immigrants, for instance, using systems. We do hear anecdotally 
in a variety of emergency shelters in this country, especially 
near the border, that illegal immigrants are likely being 
assisted. I do not really have specific hard information to 
provide you.
    Mr. Shays. Why did it not come up in your dialogue? Let me 
go to the next witness, please.
    Mr. Mangano. In my travels around the country and in my 
conversations with people who operate homeless programs across 
our country, this is not an issue that has been one of the most 
pronounced or visible issues in their experience.
    There is not good data on this issue. There have been 
certainly reports more in border areas of our country that this 
is more of an issue in homeless programs. In general, this is 
not a highly reported activity in shelters and homeless 
programs across our country.
    Certainly, it exists. It is not one of the more visible 
expressions of homelessness.
    Mr. Yaroslavsky. Let me just speak anecdotally because we 
do not have any statistics per se on that issue. Anecdotally, 
in Los Angeles, even in Los Angeles, I might say, I think the 
percentage of homeless who are illegal immigrants, my bet is it 
would be a relatively small number.
    Mr. Shays. What is a small number?
    Mr. Yaroslavsky. I do not know. Fifteen percent or less.
    Mr. Shays. Your point would be that the homeless in 
California and parts of California--
    Mr. Yaroslavsky. I said Los Angeles.
    Mr. Shays. Los Angeles, would be less than 15 percent. Why 
would you make that statement?
    Mr. Yaroslavsky. Because I know my city and I know my 
county, and I spend a lot of time on the streets of my county. 
I see who our folks are. I see who comes in for services.
    Mr. Shays. Municipal hospitals, what is the number of 
homeless?
    Mr. Yaroslavsky. That is a different issue.
    Mr. Shays. What is it?
    Mr. Yaroslavsky. What is what?
    Mr. Shays. What is the number of illegal immigrants in 
municipal hospitals?
    Mr. Yaroslavsky. I am not sure I could give you an accurate 
figure, but it is much higher than 15 percent.
    Mr. Shays. Why would this be anecdotal? Why would we have 
to ask a question like--none of you mentioned it. Is it because 
it is just a taboo subject? Is it just because it is 
irrelevant? I need to understand why.
    Mr. Yaroslavsky. If I can be blunt, the reason it is not 
raised is because it really is not relevant.
    Mr. Shays. Tell me why it is not relevant.
    Mr. Yaroslavsky. Because it is not a significant portion of 
the problem.
    Mr. Shays. How do you know that?
    Mr. Yaroslavsky. I want to be responsive. I am just trying 
to collect my thoughts so I can be directly responsive.
    Mr. Shays. Sure.
    Mr. Yaroslavsky. Almost 25 percent of the homeless on the 
streets of our county are veterans--veterans. I would take that 
25 percent and put them aside. We see through the number of 
people who come through our service agencies all over the 
county, not our hospitals, but our homeless service agencies, 
our human services agencies, some of our mental health 
facilities, they are local people. Many of them are citizens. 
Most of them, I would suspect, are citizens. They have served 
their country.
    Mr. Shays. Do not get on a separate topic. It is like 
distraction here. We know that we have a primary problem with 
veterans, but do not use veterans to disguise the fact that it 
is an anecdotal comment, because we do not understand, and I 
want to understand why we do not try to understand what the 
problem is.
    I am not saying that we will not deal with it. We are 
saying--it is like we do not want to know, my feeling is, 
because it is a bigger problem than we want to admit. That is 
where I come down.
    Mr. Yaroslavsky. I understand. Congressman, I think the 
reason--it is very hard to get information and statistics about 
homeless in general. We just completed our second census of 
homeless in Los Angeles County, just announced last week. That 
is where the 73,000 figure comes from.
    I am not sure the 73,000 figure is accurate. It is based on 
extrapolations and assumptions and formula's.
    We do not know the number of homeless, let alone what the 
demographics of the homeless are.
    We do know this, that when we have homeless come into our 
agencies, a good percentage of them have mental issues. A good 
percentage of them have substance abuse issues, etc. A good 
number of them have issues relating to serving in combat.
    I have honestly, Congressman, served in public office in 
Los Angeles County for 32 years, and this is the first time 
that the question of homeless illegals has ever come up. It has 
come up in emergency rooms and it has come up in a lot of other 
contexts. It has never come up in the context of homeless.
    Mr. Shays. It seems to me like a very logical question to 
ask and then to confront, and hopefully, with humanity and 
caring. Thank you.
    Chairwoman Waters. Thank you very much.
    Let me just say I would dare say if that question was asked 
of anybody from any city, they would not know what that number 
will be. We do not inquire of individuals who are seeking 
homeless services whether or not they are legal. It is not 
documented, in California or Connecticut.
    The other thing is anecdotally, we do know that in many of 
our communities, illegals/undocumented double up an awful lot. 
We have cases of not only several families living together, but 
even in the garages on the property where the front house may 
be full.
    I think doubling up is more of a response to the family 
members who do not have homes rather than going to a public 
shelter, if that helps you at all, Mr. Shays.
    Mr. Shays. I agree.
    Chairwoman Waters. Thank you very much. Mr. Sires, for 5 
minutes.
    Mr. Sires. Thank you, Madam Chairwoman.
    Mr. Johnston, I share Congressman Cleaver's concern, when 
you say consolidating and restructuring. I guess it must come 
from the fact that we were both mayors of cities, and when we 
hear that word, we find out that only means that you dump it on 
the municipalities, on the local municipality.
    You talk about restructuring. You talk about consolidating. 
Do you have any guarantees that this is not going to happen, 
where all these problems are going to be turned over to the 
municipalities and just abandoned? I have past experience. That 
is why.
    Mr. Johnston. Let me give a little bit of perspective on 
our proposal. When the McKinney programs were created in 1987, 
they were separate independently appropriated programs.
    HUD on its own initiative administratively collapsed them 
in a Notice of Funding Availability, three of these programs, 
the programs that we seek here to consolidate.
    The communities would no longer have to apply three 
different times to get some funding. They would not have to 
choose from one program if they did not really want it.
    We are simply trying to codify what we are doing on a 
regulatory basis and have been doing for about 12 years. In 
addition to making it simpler, to simply apply to one program, 
we would be eliminating the eight or nine different match 
requirements that are currently in the law, that are all at 
different levels.
    In just the Supportive Housing Program, there is a match 
requirement of 100 percent, if you want to build something. 
There is a 25 percent match requirement for operating costs. 
There is a 20 percent match requirement for services.
    We would love to eliminate all the complexity in these 
programs and simplify it with a simple 25 percent match 
requirement.
    This proposal is simply furthering what we have been trying 
to do for many years administratively and change the law to 
make it much more flexible for communities.
    Let me just throw out one example. Back in 1987, the law 
did and still does say that if you want to develop a housing 
project, you can only use $400,000 from HUD to do it. To do 
that today in Los Angeles or any other city would be an 
impossibility, and is an impossibility, to develop an entire 
project with $400,000 from HUD.
    We do not want to disincentivize housing. We want to 
encourage housing. We would eliminate a number of disincentives 
that were not intentional but now that we are here many years 
later, since 1987, we would like to improve upon.
    The other point I wanted to emphasize, which was discussed 
a little bit when Mr. Cleaver asked his question, if you look 
at our history on this program in the last 6, 8, or 10 years, 
this is a bipartisan issue. This is not a partisan issue.
    Helping homeless people is something everybody wants to do. 
If you look at this Administration's request, from the very 
first one forward, we always ask for increases, and we have 
proposed a consolidation for 3 years now, and every year, we 
have asked for an increase.
    This year, we will be going up well over $120 million above 
the current funding level. We are committed to making good 
change and providing the resources to do it with.
    Mr. Sires. I also had the experience where a large 
percentage of the homeless were veterans, and the problem with 
housing is certainly a big problem since HUD walked away, I 
think, from the housing for veterans, and they just turned that 
over to the local housing authorities years ago. I do not know 
if you are aware of that.
    Mr. Johnston. I have been at HUD since 1989. I am certainly 
aware of HUD's policies on the issue of homelessness.
    Mr. Sires. And you did not use any of the money from 
housing authorities to fix up veterans' housing that was built 
after the war? This is the experience I had.
    Mr. Johnston. In our homeless programs, the homeless 
programs that we are referring to today for consolidation, we 
have always used these programs to help all homeless 
populations, including veterans.
    We highly value the need to provide housing and services to 
homeless veterans. We have a great relationship with the VA. I 
am talking with my counterpart at VA on a weekly basis. We have 
done joint initiatives with the Interagency Council on 
Homelessness, where we provide the housing and the VA provides 
the services.
    We provide tailored kinds of programs to accommodate the 
special needs of veteran specific projects.
    We are very committed and have been for a long time in 
providing resources to homeless veterans, whether it is a 
project specifically just for veterans, and we fund many, many 
dozens of those, or if it is a program that will serve veterans 
among another population, we serve those as well.
    Mr. Sires. I am concerned, we are getting a lot of veterans 
back. We are going to have to really look at that in the 
future. Most of the problems with the veterans is mental in 
many cases. We need to address that.
    Mr. Johnston. I represent HUD on the Secretary of the VA's 
Advisory Committee on Homeless Veterans, and work with them on 
a regular basis. That is certainly an issue that is coming up.
    At this point, the data that the VA has indicates the 
numbers are very, very small, but no doubt, that number is 
going to increase somewhat.
    Mr. Sires. Thank you very much.
    Chairwoman Waters. Thank you very much. I would now like to 
recognize our newest member, Mr. McCarthy. I understand you 
were welcomed to the subcommittee earlier by Ms. Capito, and I 
welcome you also, and recognize you for 5 minutes.
    Mr. McCarthy. Thank you, Madam Chairwoman.
    Mr. Johnston, you struck me, not in your written statement, 
but something you said off the cuff on an answer about 
something that is missing is preventive, ahead of time.
    I would like you to elaborate on that, but also I would 
like you to answer, from your perspective, since you have been 
there since 1989, what assistance do you find the most 
effective to this population, and what do you find as 
assistance that is the least effective in this population that 
we are assisting?
    Mr. Johnston. In terms of prevention, currently under the 
statute through the emergency shelter grants program, 
prevention is an eligible activity. The statute, however, 
limits it to just 30 percent. That program is funded at about 
$160 million, so relatively little of that set of funding can 
be used for prevention.
    We would like to open up prevention in the much bigger 
consolidated program. For instance, the combination of these 
three programs that we would like to consolidate this year 
represent about $1.3 billion. We would allow up to 30 percent 
of those funds to be used for prevention.
    As I go around the country and I know Mr. Mangano has done 
the same, we see time and time again where people have slipped 
into homelessness for a whole variety of reasons.
    If they could have been assisted before then, through 
mediation in the courts, through paying the utilities, through 
helping on the rent for a couple of months, and that person 
would not have slipped into homelessness, it would have cost 
HUD a lot less, just in terms of pure budget.
    Of course, for that person, it is a very traumatic effect, 
to slip into homelessness, to live on the streets for just one 
night is horrific.
    We would very much like to expand the eligible activities 
of prevention because it would be very humane for people not 
having to come into a shelter and also it would reserve our 
funds to address it in a much more effective way, both through 
prevention and through permanent supportive housing.
    In terms of your second question as to what is most 
effective, HUD realized many years ago that emergency shelter 
is absolutely not the solution to homelessness.
    If you look at how HUD allocates its funds now through the 
homeless programs, only about 10 percent of our entire homeless 
appropriation goes to emergency shelters, because we realized 
that long term solutions are really needed to solve the 
problem.
    The vast majority of funds go to long term housing as well 
as supportive services.
    I was looking yesterday in preparation for this hearing at 
what percent of our new awarded funds go to permanent housing 
versus other activities, and it was about 87 percent, as I 
recall, of all of our new funds go to permanent supportive 
housing.
    I do want to emphasize ``supportive.'' We recognize that 
HUD, while we want to be the houser, we recognize there are 
services that are very difficult to get from other Federal 
agencies, so a significant portion of our budget is used for 
vital services that providers cannot readily get somewhere 
else.
    Mr. McCarthy. Thank you, Madam Chairwoman. I yield back.
    Chairwoman Waters. You are certainly welcome. The gentleman 
from Texas, Mr. Green.
    Mr. Green. Thank you, Madam Chairwoman, and I thank you and 
the ranking member for having this hearing today.
    Mr. Johnston, sir, your comment caught my ear, emergency 
shelters are not a solution to homelessness. I concur with what 
you said. However, for that one person who receives the 
emergency shelter, for that person, for that period of time 
that he or she would be without shelter, it is a solution to 
the problem at hand.
    My assumption is that you would not want us to eliminate 
emergency shelters. You were just emphasizing that for some 
reason, and it may have escaped me, so would you kindly 
emphasize why you were emphasizing that point?
    Mr. Johnston. Certainly. We absolutely value the need for 
emergency shelter. As the representative from L.A. County 
mentioned, in the winter times, when you have an influx of 
persons that need shelter, you need immediate assistance there. 
You have to have facilities ready to accept them.
    My emphasis was, however, that emergency shelter, while it 
will be the solution for the short term, for that 30 days or so 
that they are in a shelter, it is not a long term solution for 
that individual. They need long term housing and long term care 
to address their issues, such as helping them with job 
training, helping them get off the drugs, helping with their 
mental health issues.
    While many of those services can be provided in emergency 
shelters on a short term basis, it is very difficult to 
transition right out of an emergency shelter into full self 
sufficiency.
    Mr. Green. HUD is proposing a bill, but the bill has not 
been presented; is that correct?
    Mr. Johnston. We transmitted the bill this summer. We 
realized that the House and the Senate both have active bills 
on the same issue. We have been working closely with the Senate 
on their bill, and we would love to work closely with the House 
on your bill, and frankly, work with what is already there, 
rather than introducing a third competing bill.
    We do think there are some strong provisions in our bill 
that would strengthen the provisions in the Senate and House 
bills.
    Mr. Green. Your position is that you will not be 
introducing a bill? I question you on this because you say some 
provisions in our bill, but at the same time, you say that you 
would want to help us with the two bills that we have before 
us.
    Are we to expect a bill or are we to expect a proposal?
    Mr. Johnston. We transmitted the bill. It has not been 
introduced. At this point, we are not actively pursuing to 
introduce it. We would rather work with the committee.
    Mr. Green. HUD has at some point indicated that there would 
be a long term plan for ending homelessness; is this correct? A 
10 year proposal, I believe.
    Mr. Johnston. I will begin this response and then I know 
Mr. Mangano will also want to insert himself here.
    The Continuum of Care, which I refer to as our process for 
allocating grants and for planning at the local level, has a 
Ten Year Plan to end chronic homelessness. That is married with 
an initiative that the overall Interagency Council under the 
leadership of Secretary Leavitt and Executive Director Philip 
Mangano have espoused and have worked very closely with elected 
officials.
    I am going to turn now to Philip for any additional 
comments that he would like to make.
    Mr. Mangano. We have been working together again with 
States and local communities around the country. Forty-nine 
Governors have moved forward with State Interagency Councils, 
many of them are moving forward with Ten Year Plans. Local 
communities are making their partnership with us tangible in 
the creation of Ten Year Plans.
    Part of that effort is to find out what is happening in 
communities to more inductively understand what the Federal 
response should be.
    Even thinking about Congressman Shays' question earlier in 
terms of the issue of illegal immigrants, which has not come up 
in any of the 300 plans, the notion is to gather information 
from both States and localities so that in fact Federal 
resources are invested and targeted into inductive plans which 
actually begin at the community level.
    Part of the effort that is being made in Washington among 
the Federal agencies in the Interagency Council is to use that 
information to come up with a national plan that will be part 
of a national partnership, a national Ten Year Plan, but that 
plan would be informed and part of a larger effort at every 
level of government, no one level of government can do this, no 
one plan will effect what we want to see in this country.
    Every level of government is moving forward with planning.
    Mr. Green. Thank you. I yield back the balance of my time.
    Chairwoman Waters. Thank you very much. I recognize the 
gentleman from Kentucky, Mr. Davis, for 5 minutes, for 
questions.
    Mr. Davis of Kentucky. Thank you, Madam Chairwoman. I have 
a question first for Mr. Johnston. I just have one question for 
you.
    Can you provide the committee with recent statistics 
proving that chronic homelessness has decreased?
    Mr. Johnston. We could.
    Mr. Davis of Kentucky. I would appreciate that, if you 
would share that with us. We might have a difference of opinion 
from our perspective here versus what we see out in our 
districts and on the street versus the numbers.
    Also with those numbers, I would appreciate it if you would 
share the criteria for calculating those metrics, what defines 
somebody who is decreasing, which leads me to my next question 
for Mr. Mangano.
    You mentioned you had concerns about the proposal of 
expanding the HUD definition of ``homelessness,'' in terms of 
including long term voluntary arrangements of people living 
together for cultural preferences.
    I am coming to this not simply as a co-sponsor of 
legislation with other members sitting here, but having worked 
with families in crisis since the early 1980's.
    One thing that I have to say candidly that I have 
personally seen is most of the homeless that we would see or we 
would deal with, for example, we had one of our agency leaders 
from Kentucky testifying week before last, a single parent, 
oftentimes a woman coming from a battered or abusive 
relationship, with no means of support, and small children, 
versus the traditional image that we have with folks on the 
street.
    The Departments of Education, HHS, and Justice define 
``homelessness'' to include people in doubled-up situations, 
some of these unconventional situations, as long as it is not 
fixed, regular, a voluntary choice, for example, to reduce 
rent, not on a long term basis.
    The definitions, I think, that we are discussing that we 
would like to see changed in legislation do not really reflect 
a cultural preference decision or something that would be long 
term.
    Are you aware of this distinction in definitions between 
what we would like to see and what I think the break in 
dialogue might be?
    Mr. Mangano. Certainly, both in my written testimony and 
earlier in my oral testimony, I spoke to the definition issue. 
One of the things that the Interagency Council did was bring 
together all of the Federal agencies to talk specifically about 
this issue.
    What we discovered was that the majority of Federal 
agencies actually use the same definition, and there are 
several other definitions that are used, one at Agriculture, 
one in Health Care for the Homeless program in HHS, Justice, 
and one at the Department of Education.
    In that dialogue with those Federal agencies, I think the 
common consensus was there were appropriate reasons for the 
expanded definition at Education, specifically as Mr. Johnston 
mentioned earlier, for the well being of those children, and in 
Agriculture and Health Care for the Homeless, for very specific 
reasons.
    Again, the majority of Federal agencies, including the 
primary agencies that devote McKinney resources to the issue of 
homelessness, Veterans' Affairs and HUD and most of HHS, 
actually utilize the definition that is currently used by HUD.
    I think there are other reasons to be assembled on this 
issue. I think the Mayors have indicated at the U.S. Conference 
of Mayors when this issue came up, they felt it was an issue 
that needed to be tabled, primarily because no analysis has 
been done with regard to the cost. No analysis has been done 
with regard to how many people that would actually mean coming 
into the system.
    What State Senator McKinney from Connecticut talked about 
last week was in fact the idea of diminishing the current 
resources that are used, all of them are accounted for, all of 
them are already invested, so if there would not be a 
substantial increase, and we do not understand what that 
substantial increase would be because the analysis and the 
research has not been done, then we would actually be 
diminishing the resources that are already targeted.
    Mr. Davis of Kentucky. If I could reclaim my time, I would 
suggest politely that the Mayors who were making that 
recommendation probably have not spent a lot of time working 
down on the front lines. We do not have an organization in our 
State that I have met with or groups I have volunteered with 
that did not recognize this as a very substantial problem.
    I grew up in a single parent household myself and came to 
the edge a couple of times. I think the perspective here that 
is getting missed is by saying that in effect what we are 
saying is somebody who is escaping an abuser or some other type 
of what ought to be a transitory recovery situation, that we 
are not going to provide the Continuum of Care and we are going 
to invest in folks that frankly do not have a high likelihood, 
and I am not saying we do not take care of them, but we would 
invest money in folks who statistically do not have a 
likelihood of recovery and we are leaving out what I would 
consider, at least for my small piece of the pie, the largest 
single population of homeless are not going to be affected by 
this.
    I think you do not have any choice but to change this 
definition.
    Mr. Mangano. I think in our discussions with all of the 
Federal agencies, there was a real care and concern about those 
families. It is not that there are not needs there. It is not 
that there is not a response that is necessary.
    The concern was that the Federal resources targeted to 
homeless people are very limited, and in the GAO report of 
1999, for example, it talked about the much deeper resources of 
the Federal Government being available and accessible and to be 
targeted anew to people experiencing homelessness, I think the 
consensus among those Federal agencies was that it is the 
deeper Federal resources that should be matched up with the 
needs of people who are doubled up, not trying to bring those 
doubled up people into homelessness with all of the stigma that 
might associate with that, but in fact to invest mainstream 
resources in those lives.
    It is certainly an issue that needs to be responded to. It 
certainly requires resources. I think part of the concern was 
that there were deeper resources that could attend to that 
issue.
    Mr. Davis of Kentucky. Madam Chairwoman, with your 
indulgence, if I could just continue for one more minute.
    Coming back to the statement that Mr. Johnston made, that I 
think is a corollary to this when we are talking about 
resources.
    You made mention that the overwhelming majority was put 
into permanent housing facilities.
    Mr. Johnston. Of the new money.
    Mr. Davis of Kentucky. Of the new money. You said 87 
percent. In relation to this, and I think it is fine to do 
inductive studies among the agencies, but I think the 
providers, particularly the successful public/private 
partnerships that are working at a community level who, I 
think, have generally been very good stewards of the resources 
that they receive, have found a lot of disconnects.
    You can pay for permanent housing but we cannot have 
counseling support or job training or some of the other things 
providing for the Continuum of Care.
    I just want to say in closing, as a priority for me 
personally, and I think probably speaking for other members of 
the committee as well, what we want to see enacted in this 
legislation is making sure that the Continuum of Care is there 
for flexibility in use of the resources, and also specifically 
coming about with this re-definition, so it really gets to the 
root of the problem.
    I think it is both compassionate and also conservative 
because what we are going to do is help people get a leg up, 
become productive in the community, and be able to support 
their families, which is what the overwhelming majority want to 
do, be successful and build a future for themselves.
    Thank you, Madam Chairwoman. I yield back.
    Chairwoman Waters. Thank you very much. I understand, Mr. 
Sires, you would like to have 30 seconds to bring up an issue 
that is very important to you.
    Mr. Sires. Yes, Madam Chairwoman. Thank you very much.
    I was just wondering the percentage of homeless women, do 
you see that as a trend that is increasing? I noticed that when 
I served--do you have any statistics?
    Mr. Mangano. In the research that has been done from 1987 
until recent research done by HUD, the percentage of homeless 
families has remained fairly fixed as a percentage of the total 
number of homeless people.
    There will be three of the Nation's leading researchers who 
will be testifying in further panels. They have conducted some 
of that research that indicates what the percentages are of 
homeless families versus homeless individuals. I am sure they 
will be able to respond.
    My understanding from the research is that while the 
numbers may have increased on the family side, the reality is 
that percentage remains the same percentage as it was years 
ago.
    Mr. Sires. Thank you, Madam Chairwoman.
    Mr. Yaroslavsky. Madam Chairwoman, if I could just shed 
light on that question. In a recent census that I referred to 
earlier, my staff just handed me the sub-demographics, adult 
women in 2005, I would not hold these numbers to be etched in 
stone, but on an order of magnitude, you can get an idea, 
11,200 adult women in the 2005 census; 9,598 in the 2007 
census.
    If the trend is an indicator, it has diminished somewhat.
    I would caution one thing, and again, this is anecdotal, it 
is more than anecdotal, I do not know what is happening in your 
parts of the country, but in Southern California, 
notwithstanding the housing market situation, we are seeing a 
rash of demolitions of older units that are rent controlled and 
are relatively affordable, and in their place are coming market 
rate, either market rate apartments that are very expensive, or 
condominiums.
    The people who are being evicted from those affordable or 
rent controlled units are vulnerable. They are on the bubble.
    In the conference that Mr. Mangano co-sponsored with me in 
Los Angeles 2 weeks ago, I asked our deputy director of welfare 
for the county how many homeless people have come in and out of 
the system in the last year that touched his department? He 
said 3,500 had left homelessness, but 3,200 had come into 
homelessness in that same period of time.
    I asked who were those 3,200? He said those 3,200 were 
largely people who were either the reasons indicated earlier, 
spousal separation, in which case, the spouse may have taken 
the kids with them, or they were evicted from their units 
because they were going to be demolished for some other 
development, and the overwhelming majority of those 3,200 new 
homeless people in our county that came through the Welfare 
Department were as a result of that.
    It is something we need to watch. It will affect people who 
otherwise--this is on the prevention side--one of the ways you 
can prevent homelessness is not to lose a considerable portion 
of your affordable housing stock.
    Chairwoman Waters. Thank you very much. I would like to 
thank all of our witnesses who have served on this first panel, 
and the Chair notes that some members may have additional 
questions for this panel which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 30 days for members to submit written questions to these 
witnesses, and to place their responses in the record.
    Thank you. This panel is now dismissed. I would like to 
welcome our second panel. Thank you very much.
    I am going to start with the second panel introductions of 
some witnesses who are here from my City. I am going to leave 
for a short period of time. My colleague, Mr. Green, will be 
chairing.
    Allow me to introduce Ms. Mercedes Marquez, general 
manager, Los Angeles Housing Department, City of Los Angeles. I 
want to recognize Ms. Marquez, with whom I and my staff met in 
Los Angeles during the August recess.
    I was very impressed by her dynamic efforts to engage the 
Los Angeles Housing Department in the fight to remove the 
City's and County's dubious distinction as the homeless capital 
of the country.
    In particular, the Housing Department is partnering with 
the City's Housing Authority to create a real permanent 
supportive housing pipeline. I expect when Mayor Villaraigosa 
rolls out this affordable housing plan, Ms. Marquez will be at 
the center of other innovative initiatives. I thank you for 
being here today, Ms. Marquez.
    I would also like to introduce Ms. Elizabeth Gomez, 
executive director of the Los Angeles Youth Network. The Los 
Angeles Youth Network is a private nonprofit organization 
providing services to runaways homeless, and foster care youth.
    Ms. Gomez has worked with youth since 1980 and her 
specialized training includes comprehensive program development 
for runaway, homeless and foster youth. She serves on community 
advisory boards as well as private and state boards, and has 
presented frequently at national conferences regarding youth 
issues, youth development prevention, crisis intervention, 
suicide intervention, strength management, and program 
development.
    I thank you very much. I am going to ask Mr. Green if he 
will take the Chair while I go to another committee that I am 
serving on, and I will return shortly.
    Mr. Green. [presiding.] Thank you, Madam Chairwoman.
    Continuing with the introductions, we have Dr. Dennis 
Culhane. He is a Ph.D. professor of social policy and practice 
at the University of Pennsylvania.
    Ms. Arlene McNamee, executive director of Catholic Social 
Services, Diocese of Fall River in Massachusetts.
    Next we will have Dr. Jamie Van Leeuwen, Ph.D., project 
manager for Denver's Road Home, City and County of Denver.
    Finally, we have Ms. Nan Roman, who is the president of the 
National Alliance to End Homelessness.
    I believe I covered everyone. Did I miss anyone?
    Because I am told that we may have some scheduling concerns 
with Dr. Jamie Van Leeuwen, we will hear from Dr. Van Leeuwen 
first. I beg the others to indulge us given that we have these 
concerns, and then we will go back to the regular order 
announced.
    Doctor, if you would, please. You will be recognized for 5 
minutes.

STATEMENT OF JAMES MICHAEL VAN LEEUWEN, PH.D., PROJECT MANAGER, 
                       DENVER'S ROAD HOME

    Mr. Van Leeuwen. Thank you, Congressman Green.
    Mr. Green. Excuse me just a moment. Pardon my interruption. 
The chairman of the full committee has arrived, Chairman Barney 
Frank, and he will be recognized. The Chair recognizes him for 
5 minutes.
    The Chairman. Thank you, Mr. Chairman. I apologize for my 
lack of etiquette, but you get what you can, you know.
    I did want to thank you for being here and thank so many 
old and new friends who are here. I do want to emphasize it is 
very important that we go ahead with this. I really take pride 
in the fact that we are going ahead and dealing with the 
homeless in an integrated way, and we are including in that 
places where people can live.
    We are remembering that we cannot resolve the problem of 
homelessness or diminish it without building some homes.
    I want to thank so many friends, and in particular say I am 
very delighted that Arlene McNamee is here, who has been in the 
southern part of my district where the economic issues are the 
greatest, representing the Diocese of Fall River, a great 
advocate for dealing with housing problems or social service 
issues in an integrated way.
    I just wanted to welcome Arlene McNamee and Nan Roman and 
all the other friends, and say thank you. I have other duties, 
but I did want to make clear how important this is, and to 
promise people that this will be on the agenda, and I know that 
Chairwoman Waters is dedicated to this, and this bill will be 
coming to the Floor as part of the package.
    I just welcome everybody here. I would say as long as you 
are up here on the Hill, if you get a chance, please go talk to 
the Senate.
    [Laughter]
    The Chairman. Thank you, Mr. Chairman.
    Mr. Green. Thank you. The chairman is always recognized 
upon his arrival. We will now continue with Dr. Van Leeuwen.
    Mr. Van Leeuwen. Thank you, Congressman Green, Chairman 
Frank, Ranking Member Capito, and distinguished members of the 
subcommittee.
    On behalf of Denver Mayor John Hickenlooper and the U.S. 
Conference of Mayors, I want to thank you all for the 
opportunity to testify in support of the reauthorization of 
McKinney-Vento.
    In this testimony, I want to provide an overview of the 
work that we are doing in Denver as it relates to our Ten Year 
Plan on homelessness, and our well-established partnership with 
the U.S. Interagency Council on Homelessness and the U.S. 
Conference of Mayors. This testimony is also supported by the 
National Community Development Association.
    I want first and foremost to acknowledge the leadership and 
partnership that Denver shares with the U.S. Interagency 
Council on Homelessness and the U.S. Conference of Mayors, in 
our efforts to forge collaboration and build strategic 
alliances allowing us to more effectively respond to the 
homeless in Denver.
    This overview assesses both our progress as well as the 
cost savings we are experiencing as a result of our coordinated 
responses to assist the homeless in Denver.
    Denver's Road Home, which is our Ten Year Plan in 
homelessness, began in 2003 in response to an increasing rise 
in homeless persons in the City and County of Denver.
    Through that, we developed a strategic and comprehensive 
plan with eight measurable goals, objectives, and outcomes, 
combining accountability with compassion.
    The plan was approved by the Denver City Council and Mayor 
Hickenlooper in 2005 and went into implementation as of July 1, 
2005.
    From the beginning, the citizens of Denver were promised a 
plan with achievable and sustainable goals, with measurable 
action steps as well as a plan that emphasizes collaborative 
efforts and accountability.
    What this translates to is we are 2 years into our 
implementation in Denver. Through our point in time count, 
through the Metropolitan Denver homeless initiatives, we have 
experienced an 11 percent reduction in overall homelessness, 
and a 36 percent reduction in chronic homelessness in the City 
and County of Denver.
    This translates to about 789 new units of housing, 2,455 
homeless have been assisted in finding work, 2,003 individuals 
have had increased access to public benefits and treatment 
services, 563 families receiving eviction assistance, 132 
homeless persons entering housing through our street outreach 
collaboration, and 233 families being partnered with our faith 
based mentoring teams.
    While our accomplishments are significant, we also know 
there is a lot more work that needs to be done. We have 3,900 
men, women, and children in our City who remain homeless at the 
time of this testimony.
    There are over 600 homeless households with children 
totaling 1,563 individual people. Of these households, 465 are 
single parent families.
    The most commonly reported reason for homelessness in 
Denver was loss of a job followed by relationship or family 
break-up and substance abuse.
    In terms of the cost savings, I want to spend just a brief 
moment on that. We know that permanent supportive housing is 
demonstrating proven outcomes in our ability to transition the 
homeless off the streets and into housing.
    It costs Denver taxpayers over $40,000 per homeless person 
per year to live life on the streets. To operate one bed at a 
shelter, it is costing Denver $18,000 annually versus $15,000 
to maintain one unit of permanent supportive housing.
    When taking into consideration Denver Cares, the primary 
detox center for the City and County of Denver, the 25 highest 
users logged an accumulative total of 2,657 admissions last 
year, an average of 100 nights per homeless individual in our 
detox facility.
    After moving these individuals into 1 year of permanent 
supportive housing, we experienced a 79.6 percent reduction in 
admissions, to an accumulative total of 541 admissions per 
year.
    We went from 2,657 admissions to detox for these 25 highest 
users to 541 admissions when they moved into housing, permanent 
supportive housing, combining service requirements with 
accountability.
    The Colorado Coalition for the Homeless in their study 
looked at the chronically homeless, and after 1 year in 
housing, 77 percent of those chronically homeless were still in 
housing. Their incomes went from $185 at entry to $431, and 
emergency service utilization was 44 percent fewer days than at 
enrollment.
    We know that by putting the homeless into housing, 
especially the chronically homeless, that we are not only able 
to improve the quality of life but also significantly decrease 
the costs they are impacting in terms of our service delivery.
    I want to thank you all for the opportunity to address this 
subcommittee. I look forward to your questions.
    [The prepared statement of Dr. Van Leeuwen can be found on 
page 201 of the appendix.]
    Mr. Green. Thank you, Doctor. Because time is of the 
essence as it relates to you, we will ask questions of you at 
this time, taking you out of order.
    I have one quick question. Should agencies that deal with 
the homeless be required to ascertain whether or not a person 
is a citizen, and if so, why, and if not, why?
    Should agencies be required to ascertain citizenship?
    Mr. Van Leeuwen. Right now, it has been a dialogue that we 
have been having with our homeless providers, and referencing 
the previous question, Congressman, we are still trying to get 
a better sense of how much that issue is impacting our 
agencies.
    Right now, they ask for citizenship in order to move them 
into housing and follow the laws that are in the State and in 
the City and County of Denver.
    In terms of whether or not they should do it, we know that 
we are assisting them in accessing the services in terms of 
food and basic shelter, and really before I can answer that 
question, we really do not have the data to tell us whether or 
not this is an issue in the City and County of Denver or in 
other cities around the country.
    Mr. Green. Thank you. The ranking member is recognized for 
5 minutes.
    Mrs. Capito. Thank you. I am going to hold my questions for 
the rest of the panel. Thank you. Thank you, Doctor.
    Mr. Green. Representative Davis is now recognized for 5 
minutes.
    Mr. Davis of Kentucky. Just one quick question. In the last 
hearing, for those of you who were here to listen to that, 
there was quite a lot of talk about Federal agencies, and I get 
the sense that what I am hearing is that the Federal agencies 
will determine the winners and losers, that the Federal 
agencies are typically in these areas very far away from the 
front lines.
    I just wonder if you might comment briefly on whether you 
feel that critical decisions like this should be made at a 
local level with a little bit more flexibility in addressing 
this Continuum of Care issue based on what you have been 
working on.
    Mr. Van Leeuwen. I know that on behalf of Mayor 
Hickenlooper, the jurisdictional leadership via our Mayor and 
having that flexibility of asserting that jurisdictional 
leadership has made a significant difference in terms of our 
ability to carry out the initiative that we have in Denver.
    When you look at Denver's Road Home and the accomplishments 
that we have been able to achieve over the last 2 years, the 
silver bullet has been political will at the local level, and 
having the Mayor going and reaching out to our homeless 
providers and really putting that piece of this is about 
quality of life, but this is also about the fact that we need 
to hold our nonprofits accountable and we need to hold our 
homeless accountable.
    If we create these services, we need to make sure that they 
are being used cost effectively as we transition them off the 
streets.
    Mr. Davis of Kentucky. Thank you. I yield back.
    Mr. Green. Thank you, Doctor. We greatly appreciate your 
sharing your time with us and the information you shared as 
well. We wish you well as you make your exit.
    Mr. Van Leeuwen. Congressman, I appreciate your sensitivity 
to my schedule today as well. Thank you.
    Mr. Green. We will now move to Dr. Dennis Culhane. I am 
looking at the door because I am told that Representative 
Cleaver may come in at any moment. As he is not here, we will 
continue.
    Dr. Culhane, we will now hear from you for 5 minutes.

STATEMENT OF DENNIS CULHANE, PH.D., PROFESSOR OF SOCIAL POLICY 
            AND PRACTICE, UNIVERSITY OF PENNSYLVANIA

    Mr. Culhane. Thank you, Congressman Green, Ranking Member 
Capito, and distinguished members of the subcommittee.
    I want to commend you for taking up the reauthorization of 
the McKinney Act, which is now in its 20th year of existence. 
Many lessons have been learned, especially in the last 10 
years. I would like to reflect on some of the lessons which 
have been learned as I address some of the issues that I know 
are before the committee.
    First, with regard to this issue of definitions of 
``homelessness,'' it is my understanding that the different 
definitions that exist in the Federal agencies actually reflect 
the appropriate missions of those agencies.
    For example, with regard to HHS and the Department of 
Education, I think it is important to distinguish between 
mainstream resources for homeless individuals and targeted 
resources.
    The HHS and DOE definitions are purposely broad because 
they are intended to ensure access to mainstream resources, 
that being public education in the case of DOE, and 
transportation to education, as well as health care services 
through HHS, for these broader populations.
    With regard to HUD, however, their definition relates to 
the targeted resources, dollars that are focused on making sure 
that people who are literally homeless have access to emergency 
shelter.
    Unfortunately, right now, based on a report that was given 
to the Congress this last spring, nearly half of the homeless 
people today are literally living on the street, and are not in 
shelters, and are not currently being served.
    I think that suggests to me that we should be very careful 
about expanding the definition to populations who are in 
conventional housing, however substandard or unfortunate those 
conditions may be, when we have 300,000 people on the streets 
today who are not accessing these resources at all.
    I also would note that the McKinney resources, as you know, 
are not an entitlement. There is not a proportionate increase 
in the resources from adding new people to the pool who are 
counted as homeless. In effect, by not increasing those 
resources, we would be diluting the value of the program.
    Right now, there are about 2.5 million people who 
experience homelessness annually in the United States. That 
means that there is an average of about $750 per person from 
the McKinney Act that can go to those persons. If we increase 
the number of eligibles three-fold, we may reduce the per 
person amount available three-fold.
    It is also worth noting that there are major problems with 
trying to certify eligibility and trying to measure results if 
we include people who are less visible and in these 
conventional housing units.
    With regard to the issue of prevention, I think it is very 
important that we do try to serve people who are near homeless. 
However, research has not shown that broad based community 
interventions to prevent homelessness actually reduce the 
number of people who come into the shelter system.
    That does not mean that those resources do not do something 
that is effective for families in need, but it does not reduce 
the number of people who become homeless.
    Given the limited resources that are provided by the 
McKinney-Vento Act, I think it is important that if we do add 
prevention that we are careful to make sure those dollars are 
used to leverage mainstream resources like in TANF, in the 
mental health system and elsewhere that can provide and expand 
services and housing for these populations.
    I would encourage you to use the McKinney-Vento resources 
for demonstration projects because as yet, we do not have the 
research and results to direct a new Federal prevention 
program. We do need demonstration projects to test what would 
work and what could work and then to have those results drive 
policy.
    With regard to the issue of meeting the challenge of family 
homelessness, we now know clearly from research that 
homelessness negatively impacts children and families. I think 
it would be wise for the new McKinney Act to consider as a 
statement of principle that no family should be homeless for 
more than 30 or 60 days. Long shelter stays have no established 
benefit yet they consume most of the resources in the shelter 
system.
    My colleagues and I recently completed a study finding that 
a relatively small proportion of families, 20 percent, used 50 
percent of the resources. They are staying in shelters on 
average more than a year, and the cost of having those folks in 
shelters could translate into 4 or 5 years of a permanent 
housing subsidy for those families.
    The McKinney resources cannot solve the affordability 
problem, but they can be used to leverage TANF dollars and 
child welfare agencies into doing relocation and transitional 
rental assistance, a bridge, if you will, to permanent 
subsidies when necessary.
    Of course, HUD needs to have more resources to provide 
those permanent subsidies to address the housing affordability 
that underlies this problem.
    One of the other things that has been learned in the last 
10 years is that the permanent housing set-aside has been 
associated with significant results. We cannot justify the 
continued use of resources for emergency shelter and having 
people warehoused in shelters when we know those same resources 
can provide a permanent solution to homelessness. It would not 
be ethical. The research also shows that it is not economically 
efficient to do so.
    The set-aside has been crucial to producing these results, 
and I would urge the committee to codify the set-aside into 
law.
    Another lesson that has been learned in these past few 
years is that jurisdictional partnerships have been very 
important to advancing solutions for this population. In 
particular, the chronic homeless initiative through the work of 
the United States Interagency Council on Homelessness has 
helped communities to develop Ten Year Plans. These Ten Year 
Plans have brought new research and new accountability to 
homeless programs, more than 40 studies have recently been done 
by communities, as Denver, as Dr. Van Leeuwen noted, looking at 
the high costs associated with chronic homelessness, and the 
reductions in costs that are associated with having folks 
placed in permanent housing.
    Those kinds of results have the opportunity to drive more 
resources into the system. Thank you.
    [The prepared statement of Dr. Culhane can be found on page 
98 of the appendix.]
    Mr. Green. Thank you, sir.
    We will now move to our next witness, Ms. Marquez.

  STATEMENT OF MERCEDES MARQUEZ, GENERAL MANAGER, LOS ANGELES 
            HOUSING DEPARTMENT, CITY OF LOS ANGELES

    Ms. Marquez. Good morning, Congressman Green, Ranking 
Member Capito, and members of the subcommittee.
    On behalf of the City of Los Angeles' Mayor, Antonio 
Villaraigosa, thank you for the opportunity to let you know how 
grateful we are that you are taking up the reauthorization of 
McKinney-Vento.
    My name is Mercedes Marquez, and I am the general manager 
of the City of Los Angeles Housing Department. Along with the 
Office of the Mayor, the Housing Authority of the City of Los 
Angeles, the Los Angeles Homeless Services Authority, I am 
responsible for the administration of Federal homeless 
assistance programs in the City of Los Angeles.
    Particularly, it is my responsibility to create and 
maintain, build and support a production based system of 
permanent supportive housing in the City of Los Angeles.
    In 2006, Mayor Villaraigosa launched the first permanent 
supportive housing program in the City of L.A. He has committed 
now for the third year in a row that half of our $100 million 
affordable housing trust fund be specifically directed to the 
homeless program for permanent supportive housing.
    That means that in less than 3 years, we will have $150 
million specifically dedicated to the construction of permanent 
supportive housing.
    In addition to that, the City has committed to expanding 
the Homeless Section 8 program and is providing an estimated 
value of $129 million in rental assistance to homeless 
individuals and families.
    Moreover, a portion of this funding is supporting a 
partnership with the County of Los Angeles to move 500 families 
out of Skid Row and into affordable housing elsewhere in the 
City.
    We have already had discussion about the different 
statistics in Los Angeles. We are unfortunately the homeless 
capital of homelessness in the country. It is true that 
approximately, at last count, 22,000 folks in the City of Los 
Angeles find themselves homeless on any given night, and 13,000 
homeless children currently attend the Los Angeles Unified 
School District schools. Against this backdrop, we support the 
McKinney-Vento Homeless Assistance Act.
    Because my responsibility is particularly on creating a 
supportive system of construction, I am going to focus my 
particular comments on those issues within the Act that support 
a production based system.
    For us, it is very important that you maintain a set-aside 
for permanent supportive housing for all homeless people with 
disabilities and sustain this housing inventory with adequate 
program funding.
    At the moment in the City of Los Angeles, our permanent 
supportive housing fund is funded both with CDBG, with HOME 
dollars. I use general fund money from the City of Los Angeles, 
municipal bond financing income that comes to the Housing 
Department. I am now in a partnership with the Department of 
Transportation to contribute land to the effort, as well as 
working with our Department of Water and Power for energy 
efficiencies.
    You can see that we use everything and everything we can to 
make these programs work. It is important for us that a set-
aside be maintained in order to continually fund it.
    The most important thing about creating a production based 
system is it is a business like any other. Developers must know 
that the funding stream is consistent, that the rules are clear 
and fair. It is only in that way that they will continue to 
make the type of investment that is necessary, the holding 
costs for land, architectural fees, environmental assessments 
to move forward with building the housing.
    It is important for us to be able to project out years 
ahead of time the funding levels that we will be able to 
provide with the rules that are applied so that people will 
invest.
    Having a set-aside is important. It is also incredibly 
important that you extend from 12 months to 24 months the 
amount of time necessary to fulfill all of the requirements for 
the obligation of funds, including site acquisition and 
control, the provision of matching funds, environmental 
reviews, and the completion of construction and rehabilitation 
of supportive housing projects.
    It is very difficult to work within the system. I have to 
match every dollar for dollar with State leveraging. Our 
programs follow this different State cycles of funding, and it 
is very difficult to do all that, get it all in line and 
actually build the housing.
    If we only have a 12-month period, we are pretty much 
excluding our construction based program of providing 
supportive housing. We really need that.
    In addition to that, ensure the coordination with the low 
income tax credit program. Since we do leverage in the City of 
Los Angeles, while permanent supportive housing is more 
expensive to build, for every dollar that the City is 
investing, we are in leverage securing approximately $3.25.
    In order for us to work within tax credit programs, 
different State funding and Federal funding guidelines, we need 
the 24 months and we need the rules to match the low income 
housing tax credit program, so we can all make it work 
together.
    We would also echo what we have heard many people on both 
panels now say, that we do not support the expansion of the 
definition.
    [The prepared statement of Ms. Marquez can be found on page 
152 of the appendix.]
    Mr. Green. Thank you.
    We will now recognize Ms. McNamee for 5 minutes.

   STATEMENT OF ARLENE McNAMEE, EXECUTIVE DIRECTOR, CATHOLIC 
     SOCIAL SERVICES, DIOCESE OF FALL RIVER, MASSACHUSETTS

    Ms. McNamee. Thank you, Representative Green. I would like 
to thank Chairwoman Waters and Ranking Member Capito for 
devoting the time and attention of the subcommittee to this 
important matter. I wish to express my appreciation to Chairman 
Frank for inviting me to share my experience in serving 
homeless families and single adults in his district. 
Representatives Carson and Davis deserve our deepest gratitude 
as well for introducing the HEARTH Act.
    We wish Representative Carson a speedy recovery, and she is 
in our thoughts and our prayers.
    My name is Arlene McNamee, and I am the executive director 
of Catholic Social Services of the Diocese of Fall River, 
Massachusetts, and I also serve on the Board of Directors of 
Catholic Charities USA.
    CSS is the largest provider of services and shelter for the 
homeless outside of the Greater Boston Region. Last year, we 
served a total of 42,523 individuals with a range of services 
including food, medicine, financial assistance, and housing 
case management advocacy and counseling, services that often 
function as a means of preventing homelessness.
    CSS provides services and shelter for more than 348 
homeless families and individuals each night in housing 
programs that include emergency shelter, transitional housing 
for homeless women and children, women returning from prison, 
70 permanent housing units for families, and 65 units for 
singles who were formerly homeless.
    My testimony will reinforce the following three points: 
First, HUD is not keeping its commitment to provide affordable 
housing for the extremely-low-income households; second, 
reauthorization of the McKinney-Vento Act must expand HUD's 
definition of ``homelessness'' and restore the ability of local 
communities to act on all they have learned since the last 
reauthorization; and third, the HEARTH Act will best enable 
communities to put into practice all we know about preventing 
and ending homelessness among all households--urban, suburban, 
and rural.
    HUD must re-establish a commitment to produce and subsidize 
and preserve affordable housing for the poor. Last week, the 
Commonwealth of Massachusetts reported that 1,800 families were 
in homeless shelters. According to the Massachusetts Coalition 
for the Homeless, more families are in shelter now than at any 
time since the inception of the State's family shelter program 
in 1983.
    This is not a function of overabundance of shelter beds. 
This is a result of a dwindling supply of affordable housing 
options for the very poor.
    In order to begin to reverse the growing problems of 
homelessness, the Federal Government must be an active partner 
in the creation of affordable housing. We must enact the 
National Housing Trust Fund to bring these solutions to scale.
    The chronic homelessness 30 percent set-aside carved out of 
the McKinney-Vento programs is applied without regard to the 
number of chronically homeless individuals in each community. 
HEARTH rejects HUD's current practice of prescribing solutions 
aimed at big cities like New York and San Francisco, directing 
dollars away from small towns and rural areas.
    Most Americans are living in cities like mine, with 
populations of 90,000 to 250,000. Our needs are different than 
that of big cities, and we need to have control over our 
problems.
    The eligibility criteria associated with the set-aside is 
exclusionary and burdensome. Take, for example, the Donaldson 
family. After Mr. Donaldson lost his job and fell behind in his 
rent, the landlord placed him in what amounts to a servitude, 
requiring him to work as a janitor in order to maintain housing 
for his wife and four children. This, of course, interfered 
with his plan to find a new job, further driving the family 
into poverty.
    After the landlord began to verbally abuse him in front of 
his wife and children, Mr. Donaldson went to the local shelter 
for help, but the shelter was full. Donaldson did not quite 
qualify for the our HUD funded permanent housing program.
    For 2 weeks, this family of six lived in a car until they 
could complete the necessary paperwork to qualify under the 
current HUD definition for the housing program. While they met 
one part of the current definition, which was living in a car, 
they did not have the documentation for a disability.
    This story begins to illustrate the need to expand HUD's 
definition of ``homelessness'' and restore local flexibility.
    Research coupled with practice teaches us that families are 
best served in their own homes, and that to prevent 
homelessness whenever possible is the best option.
    We have learned that each family and individual does not 
neatly fit into HUD's rigid categories. HUD must expand its 
definition of ``homelessness'' to include families who are 
doubled-up and living in motels for lack of other options.
    While doing outreach to a local motel, one of our workers 
found a mother with two children, ages 4 and 11. The 11 year 
old daughter was severely disabled and suffering from advanced 
cerebral palsy. As such, she was lying motionless on a mattress 
on the floor. Placing a mattress on a floor is a common 
practice of protecting children with CP from falling out of 
their beds.
    Without money for a wheelchair that was left behind when 
she fled her abuser, the mother had to carry the child wherever 
she went. This and her fear of being located by her abuser 
prevented her from leaving the motel room.
    Sadly, this family did not qualify for our permanent 
supportive housing program because the current definition 
states that the head of the household must have the disability. 
In fact, because they are living in motels, they are not 
considered homeless by HUD, and not entitled to McKinney-Vento 
services at all.
    Finally, children living in families who are doubled-up or 
living in motels suffer in unimaginable ways and are at risk of 
similarly poor outcomes to those of homeless children.
    Congress must expand the HUD definition of ``homelessness'' 
to include persons who are sharing the housing of others due to 
loss of housing, economic hardship, or similar reasons, and 
those who are staying in motels because of lack of adequate 
alternative accommodations.
    We ask that the committee weigh heavily the findings of 
practice wisdom and research and reject HUD's overly 
prescriptive Federal policy which aims to standardize the 
response to homelessness.
    HEARTH consolidates the separate HUD programs and codifies 
the Continuum of Care and restores the local flexibility 
necessary to operate properly.
    Lastly, HEARTH extends the HUD definition to include 
persons who are sharing the housing of others due to loss of 
housing, economic hardship, or similar reasons, and those who 
are staying in motels because of a lack of adequate alternative 
accommodations.
    HEARTH makes the Continuum of Care approach responsive to 
all communities by restoring local flexibility, streamlining 
the application process, adding double upped and multiple 
families to HUD's definition, allowing more money to be used 
for prevention.
    HEARTH is the optimum approach and we urge the committee to 
support HEARTH and thank the 79 co-sponsors of this bill.
    Please refer to my written testimony for further comments, 
and I would like to thank the committee and Chairman Frank for 
this opportunity.
    [The prepared statement of Ms. McNamee can be found on page 
161 of the appendix.]
    Mr. Green. Thank you.
    Ms. Gomez is now recognized for 5 minutes.

 STATEMENT OF ELIZABETH GOMEZ, EXECUTIVE DIRECTOR, LOS ANGELES 
                         YOUTH NETWORK

    Ms. Gomez. Thank you for having me here today. As we talked 
earlier, I am a little bit different in my representation in 
that I am a local service provider providing services to 
runaway, homeless, and foster care youth.
    Today, I am here as a representative of the National 
Network for Youth, the Nation's leading organization on youth 
homelessness.
    It is an honor to testify. It is the first opportunity in 
the 33 year history of the National Network to appear before 
this committee. Our absence before this body is indicative of 
the inattention to youth and public policy regarding housing 
and homeless assistance.
    An analysis of community plans to end homelessness 
conducted by the National Alliance to End Homelessness 
concludes that only 49 percent of such plans have youth 
specific efforts.
    In Los Angeles, while we have been invited to the 
discussions, our appeals for accommodations to address the 
unique developmental needs of homeless youth go unheeded.
    Therefore, we are very grateful today and thankful that we 
are here to talk about the needs of homeless youth.
    As many as 3 million youth and young adults experience a 
homeless situation annually. In Los Angeles, as was stated 
earlier, a recent count shows that 20,000 of those homeless are 
under the age of 18; 11,000 between the ages of 18 and 24; 
another 3,000 of unaccompanied minors.
    Some sit innocuously in classrooms in Jordan or Hollywood 
High School and sleep on the couches of their classmates if 
they are lucky. Others go to work at minimum wage jobs and 
sleep in shifts in efficiency apartments or motels, just to 
make ends meet.
    Many of these young people end up homeless as well on the 
streets and go back and forth to these efficiency apartments or 
motels.
    Other children hang out on the streets of Hollywood, Santa 
Monica, Pasadena, South L.A., and yes, the infamous Skid Row, 
or Cardboard City, as it has been called.
    A fortunate few make it to a homeless youth organization 
such as the Los Angeles Youth Network.
    A primary source of funds for us, the youth providers, is 
the Federal Runaway and Homeless Youth Act. This is a great 
resource. However, the Runaway and Homeless Youth programs have 
their limits. Emergency shelters can only serve youth up to age 
18, grant awards that are capped at $200,000, funds are not 
available for supportive services only, and Congress 
appropriated in 2007 only 7 percent of what was appropriated to 
the McKinney-Vento Act.
    Runaway and homeless youth agencies must look for funds in 
other areas, thus we return to the McKinney-Vento Act as it is 
a program that Congress established for all homeless people, 
and I emphasize the word ``all.'' Young people, youth, should 
be included in that process.
    We receive about $42,000 for supportive services, a 50 
percent reduction over the years, a loss attributed to our 
county's shift toward permanent supportive housing, due to the 
Federal chronic homeless initiative.
    I know of many other organizations that we work with that 
are in similar situations. No other public agency has stepped 
up to replace those funds.
    It is one of the reasons the National Network for Youth 
supports the HEARTH Act. The bill would restore flexibility to 
communities to use HUD's McKinney-Vento funds as they determine 
most appropriate. Also, it would revise the HUD definition of 
``homelessness'' to include additional living arrangements, 
common among homeless youth, and recognized as ``homelessness'' 
by Congress several times already.
    The Senate reauthorization bill misses the mark on many 
counts, although we do favor the prohibition on HUD funded 
family shelters and family housing from denying admission of a 
whole family or a youth member of the family on the basis of 
age.
    This practice is harmful to families, stigmatizes the youth 
and is a causal factor for youth homelessness.
    The current HUD McKinney-Vento programs are critical to 
reaching some homeless youth. They could support more youth, 
however, if we rolled back the current restrictive 
administrative policies, strengthened the laws so that all 
homeless subpopulations may have equal access to funds, and 
increased authorization and appropriation levels.
    The HEARTH Act meets these needs.
    The reauthorization of the HUD McKinney-Vento Act must be 
considered as just a part of a larger effort. We must take bold 
steps such as those offered in H.R. 3409, the Place to Call 
Home Act. This bill by Representative Hinojosa seeks to end 
youth homelessness, and we urge the subcommittee to give 
attention to the permanent housing provisions of that bill in a 
future hearing.
    We also urge everybody on the committee to visit youth 
programs in their local communities so they can meet the young 
people in our Nation who are part of the homeless population, 
as important as any other group, and who are just as desperate 
for a safe place to call home.
    Thank you.
    [The prepared statement of Ms. Gomez can be found on page 
111 of the appendix.]
    Mr. Green. Thank you.
    We will now recognize Ms. Roman for 5 minutes.

  STATEMENT OF NAN ROMAN, PRESIDENT, NATIONAL ALLIANCE TO END 
                          HOMELESSNESS

    Ms. Roman. Thank you so much. Thank you to the members of 
the subcommittee for your leadership and congratulations on the 
passage of the National Affordable Housing Trust Fund. 
Affordable housing is ultimately the solution to homelessness.
    The HUD McKinney-Vento programs have been well-run over the 
past 20 years, well-administered by HUD, and well-delivered by 
a network of nonprofit and faith based providers.
    Over these past 20 years, we have also learned a lot about 
what works. The reason it is important to reauthorize McKinney, 
I think, is to take advantage of what we have learned about 
what works and to apply it more broadly.
    Our goal in reauthorization should not be to have an 
expanding shelter system that more and more people enter with 
no clear way out. That would be going backwards. Our goal 
should be to use best practices to reduce the number of 
homeless people and create a system that is all about 
preventing homelessness and moving people back into housing 
fast. That, I think, would be the path forward.
    Furthermore, it is important to keep a balance in the 
program. It is not a matter of ending homelessness among 
children say or chronically homeless people first. The program 
has to address the needs of all homeless people in a sensible 
and balanced way. It is not one or the other, while retaining a 
focus on best practices to improve outcomes.
    What have we learned in the past 20 years that would help 
us to achieve these goals?
    I think we have learned that permanent supportive housing 
works for people who are disabled. It solves the problem of 
homelessness. The 30 percent set-aside, which is a national 
set-aside, not local, works to make sure that a proportionate 
amount of resources goes to that group.
    Some focus on chronic homelessness work because by 
definition, this is a group of poorly served people whose 
interests must be protected.
    We cannot just focus on the chronic population. Rapid re-
housing works for at least 80 percent of families and children. 
Permanent housing provides a stable base for children, 
education, services, and employment. Shelter does not.
    What we want to do is get children and families back into 
housing faster and not prolong their homelessness.
    The other 20 percent of families and children have more 
serious problems including disabilities. Some are chronically 
homeless. They should be included in the definition. Chronic 
homelessness, they need long term housing subsidies and 
services assistance.
    Other things we have learned is that data are important. 
Rural areas present different challenges. The Federal response 
should be different in rural areas. Prevention works but it has 
to be tightly targeted to those at eminent risk.
    A key learning of the past 20 years is that places that are 
making progress in reducing numbers are targeting better and 
more tightly.
    In this regard, I want to speak to the HEARTH Act's 
proposal to broaden the definition of ``homelessness'' to 
include people who are doubled up for economic reasons. That 
broad inclusion, I think, is a bad idea for several reasons.
    First of all, we have actually--there are currently, as has 
been said, 744,000 people who are defined by HUD as homeless. 
Only slightly more than half receive shelter. We are not 
meeting the current needs of people who are defined as homeless 
by HUD.
    We have looked at the American Community survey data to try 
to estimate what expanding the definition would mean. We 
estimate that it would mean 3.8 million more people would be 
eligible for assistance than are currently assisted or defined 
as eligible. That is 5 times the current number of people who 
are eligible.
    We would need $7.8 billion on a pro rata basis to provide 
services to those people at the same fairly misery level of 
services we now provide to people who are eligible.
    Second, ``doubled up for economic reasons'' is probably way 
too broad. Many people are doubled up for economic reasons, but 
they are not homeless. They are stably housed. Their housing 
may not be optimum, but the homeless system has nothing to 
offer to remedy that situation.
    Section 8, the National Affordable Housing Trust Fund, and 
other housing programs should address their housing needs and 
we need more of those. CDBG, TANF, Child Welfare, and other 
service programs need to address their service needs.
    There are doubled-up families who are not stably housed, 
who are couch surfing or moving from one home to another. They 
are literally homeless and they should be included in the 
definition.
    For most doubled-up families who cannot get help from the 
homeless system, the problem is not that they are not eligible 
for assistance. The problem is that we do not have enough 
resources to help them in the system.
    Calling 5 times more people homeless will not help that 
problem. It will just exacerbate it.
    We can do a better job of helping homeless families with 
children, youth, veterans, and single adults. In my view, the 
Community Partnership to End Homelessness Act in the Senate 
provides a great legislative template for achieving the balance 
and sensible approach it takes to meet all of these needs.
    I urge you to look at it closely. I think it has arrived at 
some pretty creative solutions to these conflicting needs and 
opinions, and is a good road map for moving forward.
    Thank you.
    [The prepared statement of Ms. Roman can be found on page 
189 of the appendix.]
    Mr. Green. Thank you all for your testimony. I will now 
recognize myself for 5 minutes.
    Dr. Culhane, you indicated that you thought a 30 day rule 
would be appropriate. Would you please restate your 30 day 
rule?
    Mr. Culhane. I am just suggesting, sir, that in the 
statement of principle, we should be committing ourselves to 
the goal that families should not be homeless for more than 30 
or perhaps 60 days.
    The idea that families should be lingering in shelters for 
a year, a year-and-a-half, or 2 years, as is now actually 
permitted, and in some cases, actually encouraged 
programmatically, that should be done away with.
    Mr. Green. Thank you. Would everyone agree with this? If 
not, I would like to hear anyone with an opposing point of 
view.
    Ms. Gomez?
    Ms. Gomez. I think for young people, for youth, we have a 
very different perspective. You cannot put an unaccompanied 16-
year-old into permanent housing. They cannot even sign a lease. 
There is a group of young people who based on their 
developmental needs do need to stay in emergency shelter longer 
because they also do not have resources. They might not have a 
family to go back to. They might not have a relative that we 
found, and they might not have appropriate resources to 
transition to stability.
    Rather than putting them on the street, you keep them in 
shelter until you can find an appropriate housing situation.
    Mr. Green. Yes?
    Ms. McNamee. Representative, I would just like to make sure 
that Dr. Culhane is only talking about emergency shelters and 
not transitional.
    Mr. Culhane. I am including both because we do not see a 
benefit in the research for families who stay in transitional 
versus emergency shelters.
    We do not see a benefit associated with those longer stays. 
Families who are housed, regardless of how long they stay and 
whether they are in emergency shelters or transition shelters, 
do well in housing, and that should be our goal.
    Mr. Green. Ms. McNamee?
    Ms. McNamee. Thank you. Our finding has been that there are 
certain populations of women and children who really do need 
the transitional step prior to going to permanent housing. In 
that case, it typically has been women who have come from 
domestic violence situations where they really need time to 
reconstruct their lives and time to sort of--the word I would 
use which is not very therapeutic--be. Meaning where the 
pressure is off. There is someone to assist with supporting the 
child care because the children have also been traumatized.
    They need to establish their identity. They need things 
like licenses, cash, apply for benefits, all of which are 
pretty difficult, and they are usually very afraid to be by 
themselves for the first 3 to 4 months of leaving a domestic 
violence situation. We have had them leave and come back.
    Mr. Green. Thank you. Doctor, back to you again. You 
indicated that prevention dollars do not diminish the number of 
persons who are going into shelters, I believe you said.
    Would you care to elaborate on that? I would like to get 
some responses from other members of the panel as well, more 
specifically, Ms. McNamee.
    Mr. Culhane. I was speaking specifically with regard to 
untargeted prevention dollars. There have been several efforts 
to experiment with community based homelessness prevention 
programs where dollars are given to families to avoid eviction 
and to deal with rent arrearages.
    These programs, we find, are very successful in that very 
few of the families end up becoming homeless. However, there is 
no net impact on the shelter system. It is not clear that these 
families would be homeless if they did not get that assistance.
    The issue, as I heard it described by one of the providers 
who deals with these programs, is that trying to find the 
families who would become homeless is worse than trying to find 
a needle in a haystack. It is like trying to find a piece of 
hay in a haystack because the families are all so similar, the 
need is so widespread.
    For that, I was suggesting that we really need to look at 
the safety net programs that should be preventing homelessness 
in the first place and why they are not working. Why is TANF 
not effective in providing adequate income to families so that 
they do not become homeless? Why does the mental health system 
and the substance abuse treatment system--why are they not 
effective in providing appropriate treatment and support so 
people do not become homeless?
    Mr. Green. Because my time is running out, I am going to 
have to beg that I move to another person. Ms. McNamee, would 
you care to respond?
    Ms. McNamee. The issue of TANF supporting, people in fact 
get sanctioned off TANF or their time period is over. They are 
part of the population that is becoming homeless because they 
were never able or probably will never be able to sustain 
reasonable employment or to earn sufficient income to maintain 
an apartment.
    It is not that people are not working. It is that they do 
not have enough money to afford the housing stock, and there is 
not enough housing stock.
    We do tremendous amounts of preventive care. We probably 
spend for our budget somewhere around $150,000 to $200,000 a 
year in financial assistance, preventing homelessness, and in 
giving rent money.
    The trick to it is you need to make sure the people can 
afford their rent the next month. Most people cannot. Many 
people cannot. While you are waiting for either the voucher for 
public housing to kick in, you are dealing with the 
homelessness factor. The waiting lists on public housing and 
Section 8 can be 4 to 5 years. During that time gap, even 
though people have money, there is no affordability.
    Mr. Green. Thank you. One final question to each of you, 
and it will be a yes or no question to be answered quickly.
    At an emergency shelter, should we ascertain citizenship? 
Yes or no?
    Mr. Culhane. I would say no.
    Ms. Marquez. No.
    Ms. McNamee. No.
    Ms. Gomez. No.
    Ms. Roman. No.
    Mr. Green. Thank you. We will now recognize the ranking 
member for 5 minutes.
    Mrs. Capito. Thank you. I want to thank the Chair.
    I want to pose a question here because a lot of what we are 
talking about is going back to what I asked in the last panel, 
expanding the definition of ``homelessness'' with HUD to 
include more children and families, single parents, in 
different situations.
    I am kind of fast forwarding. Let us say we do that. Do you 
envision a situation--Ms. Gomez, you said you are where the 
rubber meets the road. You are right there. You are a service 
provider.
    A situation where you are going to have to prioritize 
within your own shelter, within your own community, who--we 
have already said the resources are going to be thinning. I 
think Mr. Mangano made that point.
    How are you going to be able to prioritize the homeless, is 
it chronic that has more need or is it the families? To me, I 
think those are going to be very difficult decisions that are 
going to be made. I am wondering if any of you have thought 
about this and how that is going to set up in a real life 
situation.
    Ms. Gomez. I will take that. With us, the young people, the 
youth who are living in doubling-up situations, motels or 
efficiencies, are young people who probably transition into 
street homelessness also. They might go back and forth into 
those different environments. A lot of those young people, for 
youth specifically, we work with those youth on a regular basis 
in our drop in centers and emergency shelters.
    Our goal is if they are stable enough to work and to try to 
stay in a doubled-up situation, to transition them into a more 
permanent situation rather than making them become homeless and 
living on the street before they can access service.
    Ms. Roman. I think that generally you have to look at how 
to set those priorities community-wide. Programs are designed 
to help specific populations. Community-wide, what I think will 
happen--you have to have a balance because you have to serve 
everybody. You have to meet all of the needs.
    I think what might happen is if you have a lot more people, 
you basically will be increasing the demands by a factor of 
several times, unlikely to have a lot more resources.
    What I think is going to happen is you are going to get 
thinner interventions, less rich interventions, fewer outcomes, 
and more emergency assistance. I think you are also going to 
see the shelter systems start to clog up because you are not 
going to have the exits to get people out, especially the high 
end users that consume the majority of shelter resources.
    Ms. Marquez. What we already do in Los Angeles, we have a 
$100 million affordable housing trust fund. It is split 50 
percent of it for the chronically homeless specifically. Within 
that group, we already target homeless adults, emancipated 
foster youth, transition age youth, and very-low-income 
families who have experienced already the beginnings of chronic 
homelessness. We are already doing that.
    What we are now doing to help what we are calling 
situationally homeless families, who are not yet needing the 
very rich level of services, and this has everything to do with 
it--when you have to build a building that is going to have to 
contain all of the space for services, that is much more 
expensive.
    If we are going to have folks who need very heavy duty 
services, we need to have them together so they are taking 
advantage.
    Our other program, the regular affordable housing trust 
fund, which is now funded in the last 4 years, we are butting 
up against 6,000 units. The vast majority of those units go to 
very-low-income families. We are now this year going to add a 
10 percent set-aside in our regular program, not the homeless 
program, our regular program, a 10 percent set-aside for 
situationally homeless families who need a much lower level of 
service, that will marry with the Section 8 voucher.
    We are trying to handle that. It is a huge part of our 
population, but we handle it through our regular affordable 
housing program because their services needs are lighter and as 
a result, less expensive.
    Mrs. Capito. If I could just clarify that. You have spotted 
this as a need and a potential conflict here. What you are 
doing in Los Angeles is really with the flexibility that your 
city and the support obviously, and that you have vast 
resources, have made those decisions at the local level rather 
than have those decisions made at the Federal level.
    Ms. Marquez. Yes. If it were made at the Federal level, it 
would be much more difficult because it would add more expense 
for us as we are building the type of supportive housing with 
rich services that are necessary. It would be a very different 
thing and the per unit cost would soar.
    With what I am doing now, you are right, I am lowering the 
cost by putting those families where they belong, with other 
families that need less services.
    Mr. Culhane. If I could just follow up.
    Mr. Green. Yes.
    Mr. Culhane. I think that there are a number of priorities 
that the McKinney Act, and as it has been administered through 
HUD, a number of priorities that have been very effective in 
helping to make sure that resources are targeted and have an 
impact.
    I think the concern about expanding the definition or 
leaving it up to localities is that there are many localities 
that do not like the homeless. As the research has indicated, 
there are close to 40 percent of the people who do not have any 
shelter whatsoever, are not getting any services. They are 
living and in some cases dying on the street.
    Some communities may choose to expand the definition to 
serve people that they prefer to serve, and to continue not to 
serve people who are on the street. I think that has been the 
value of the Federal priorities, they have made localities have 
to recognize and understand these needs that they might 
otherwise ignore.
    Mr. Green. Thank you. I now recognize Mr. Cleaver for 5 
minutes.
    Mr. Cleaver. Thank you, Mr. Chairman. I have a number of 
questions that I think are for me very critical.
    Dr. Culhane, you mentioned 2.5 million homeless in America. 
Is there any way for us to better document the homeless? How 
comfortable are you and frankly everybody on the panel with the 
numbers that we throw around?
    In the State of Missouri, for example, we said 8,000 
homeless and 1,600 in my City. Whenever I hear those numbers, I 
usually just disregard them because I just think that some 
person is down in the basement with really thick glasses--okay, 
thin glasses, and they are just coming up with a number.
    Mr. Culhane. I think it is good to be cautious. In the 
1980's in this room here, there were two separate hearings held 
on the issue of, ``How many homeless are there in America?'' 
Fortunately, in the 1990's, there were no hearings focused on 
that because the research community came to a resolution on 
that issue from different yet convergent methodologies. We have 
estimated that about one percent of the population is homeless 
each year. Of course, that varies by region.
    Furthermore, one of the more important things that the 
Congress has done in the last 10 years is required communities 
to implement information systems that are gathering systematic 
data on everybody who comes into the homeless system.
    On that basis, the Congress received its first report this 
past spring, the Annual Homelessness Assessment Report, that 
will be delivered to the Congress annually, and is providing a 
reliable annual estimate of the number of people who experience 
homelessness in the United States.
    We have made a tremendous amount of progress. It is not an 
exact science by any means. I think we are very comfortable 
saying the number is between 2.5 and 3 million and the number 
on a given night is around 700,000.
    Mr. Cleaver. You understand the importance of it as we are 
talking about block grants?
    Mr. Culhane. Yes.
    Mr. Cleaver. I think all of you--I hope I saw this 
correctly--were opposed to expanding the definition.
    Mr. Culhane. I am opposed.
    Ms. Marquez. We are supporting it.
    Ms. Gomez. I am opposed.
    Mr. Cleaver. With what is happening in the secondary 
market, subprime market, with an estimated two million 
foreclosures on line when the new rates are triggered this 
year, don't you think we need to do all kinds of things to 
accommodate the new homeless, I think they are called ``couch 
surfers,'' in other words, people who are sleeping on the couch 
in their aunt's house because they lost their home, and the 
church where I am, I know of seven people who lost homes and 
are living with others.
    Do you not think, based on what is happening in the 
subprime market, that we need to make some adjustments?
    Mr. Culhane. If I could, Mr. Cleaver, I would distinguish 
between people who are literally homeless, people who are on 
the street or in an emergency facility, versus people who are 
at risk of homelessness and who have unstable housing.
    I think the situation you are describing is something that 
as a society we absolutely should be doing more to make sure 
that people who are at risk of homelessness do not become 
homeless.
    I do not think that defining everyone as homeless and 
trying to shoehorn them into the homeless programs is going to 
do that. We need to have more effective anti-poverty programs 
in general, including programs that deal with folks who are 
facing foreclosure.
    Those problems are much broader than the problem of literal 
homelessness.
    Mr. Cleaver. Yes. The people I have spoken with, I went 
undercover at a local ABC station a few years back. I let my 
beard grow and I put on ragged clothes and I went out. They had 
a camera on me, Channel 9, KNBC, an ABC affiliate, and they 
were in a plain truck and they followed me around and so forth.
    As I talked to people who were homeless, many of them 
started out pretty much like what is happening to folk who are 
losing their homes.
    I do not know of anyone who said, ``After careful study and 
reading several booklets, I decided to become homeless.''
    It was the movement of events that triggered the 
homelessness. With people losing their homes, that could 
actually trigger what is being called ``chronic homelessness,'' 
which I think there is some controversy over that.
    I know my time is running out. Ms. Roman?
    Ms. Roman. I think the solution to that really is we do not 
have much to offer those people in the homelessness system. We 
have shelter and some kind of case management. Those people 
need affordable housing. They need the other things you are 
doing in this committee, the National Affordable Housing Trust 
Fund, the Section 8 issues, that is what those folks need.
    I think what we want to avoid is having all those people 
become homeless. That is a terribly important thing for us to 
do.
    The community partnership also does have a lot of 
prevention, new prevention resources, and we should get better 
at getting people back into housing faster and having some 
flexibility to do that.
    Ms. McNamee. I agree. I think much like the last time we 
went through this, we tend to be much more responsive this 
time, and there has been some efforts made to train the housing 
counseling people. There are some programs around foreclosures 
and a lot more outreach to families who have in fact lost their 
houses, and hopefully before they lose their houses, to provide 
the interventions to do it.
    I think we have gotten a little better. I think with much 
more outreach to those individuals, hopefully we will not see 
them sleeping on the couches.
    Mr. Green. Thank you. We will now recognize the former 
ranking member, Mrs. Biggert, for 5 minutes.
    Mrs. Biggert. Thank you, Mr. Chairman. I am sorry I missed 
part of your testimony. I would like to ask Dr. Culhane, your 
research on public shelter utilization in New York and 
Philadelphia found that children were more likely than the 
general population to become homeless.
    I think your analysis also found that the younger the 
child, the greater the risk. Indeed, infants under the age of 
one had the highest rates of shelter usage.
    Would you conclude that infants and toddlers do not suffer 
lasting ill effects from homelessness? Do you think they do 
suffer more or less?
    Mr. Culhane. I think the literature shows that in the near 
term we know that families and children who experience 
homelessness do suffer ill effects of that. I do not know that 
we have evidence yet as to what the long term effects are.
    Mrs. Biggert. Are you concerned that it could be that 
extreme stress in early childhood would cause physical and 
mental disabilities later in life?
    Mr. Culhane. It is certainly possible. It is also the case 
that we know that families when they are in the homeless system 
are less likely to access other resources, for example, early 
care programs, including Head Start programs.
    I think one of the reasons that it is important to get 
families back into stable housing as quickly as possible is 
that it will enable them to access some of the mainstream 
programs more effectively, have more stable schooling, and not 
have to move around as much, all of those things.
    Mrs. Biggert. I think one of the things that we have been 
working on, on the education side of it, is that Head Start 
would be available to the homeless.
    This is for a couple of people. I will start with Ms. 
Roman. I understand that your organization endorses the Senate 
bill. In order to be eligible for HUD homeless assistance, a 
family in a doubled-up situation must be notified by the owner 
of the residence where they are staying that they can only stay 
there for a short period of time, and having moved 3 times in a 
year or twice in the previous 21 days, and not had significant 
resources to contribute to rent.
    Are you concerned about the impact this definition's 
requirements would have on homeless children?
    Ms. Roman. I think the balance that we need to strike is 
between doubled-up for economic reasons, which I think includes 
a lot of people who may have bad housing situations but are not 
homeless, and who among the doubled-up population is actually 
homeless.
    We were looking for some way to describe couch surfers or 
people who are unstably housed but doubled-up. If that is not 
the way to do it, I think there is plenty of room for 
compromise on this between what is too broad a definition and 
what I think many people anyway are really meaning, which is 
there is definitely a group of people who are doubled-up, who 
are homeless and need help.
    Of course, we are always concerned about the effect on 
children. I guess my concern is the homeless system--what 
children need is stable housing. We do not really have that to 
offer them in the homeless system. We have shelter.
    Mrs. Biggert. Just take, for example, a mother and her 
children who are in an abusive situation, domestic violence, 
and they are fleeing really to find some place, safety, and 
they go to maybe a relative and they are staying, so they are 
going to have to document the proof of all of these things in 
order for them to stay some place?
    To me, they are almost like refugees who are fleeing with 
the clothes on their back and they need to find a place.
    Ms. Roman. If they need a place to stay and they present as 
homeless, they are homeless, and they are eligible for homeless 
assistance.
    I think the question is, if you are trying to get them 
services while they are living with somebody--
    Mrs. Biggert. They are the people who very much need that. 
If they can only stay for a short time, then they are going to 
have to move from place to place, and maybe they will end up in 
a shelter or maybe they will end up in a car, if they have one. 
Maybe they will end up in a motel.
    It just seems to me to focus on such a definition is not 
the way to go.
    Let me ask Ms. McNamee. Do you not think we should broaden 
that definition?
    Ms. McNamee. I do. If you think about this domestic 
violence victim who leaves and has to demonstrate being 
homeless, and I believe it is 3 times in 21 days or something 
like that, they have to verify that. Where are they going to 
go? Go back to the abuser and say, ``Oh, by the way, could you 
tell them that I was here?''
    Or a youth who was on a couch and was sexually exploited in 
order to get an overnight stay, is he going to go back and ask 
the exploiter person to please tell them that I was here?
    I think it creates a barrier in the definition and it is a 
real problem for very, very vulnerable populations. We also 
know that this population, because we have a fair amount of 
mentally ill folks, set each other up sometimes, so they are 
held captive.
    If you want a verification from someone, well, I will tell 
you if, you know, I will tell them you were here if. I am just 
not sure that is quite the way we want to do that.
    Mrs. Biggert. Thank you. I see my time has expired.
    Mr. Green. The gentleman from Kentucky, Mr. Davis.
    Mr Davis of Kentucky. Thank you, Mr. Chairman. Just a 
parenthetical statement on this last comment, when we are 
dealing with the definition. You are going to have people fall 
through the cracks if you do not re-define it.
    I was reminded of a humorous story after a system change 
when the Army payroll system went computerized many years ago. 
I walked in and discovered that none of my bills had been paid 
and my bank deposits did not happen because I had been deployed 
and I came back to find out that somehow I was lost.
    When I went in to inquire about my check in uniform, I was 
told that I was not in the Army any longer, and was not a real 
person according to the computer until a kind person restrained 
me.
    I think about how we got that fixed after a spirited 
discussion, but I had all the documentation to prove who I was.
    The challenge that I think you run into here is you have 
people who are dealing with a wide variety of issues, those who 
have been victimized, young people who are going to be 
intimidated by any form of governmental system creates a huge 
challenge in dealing with that.
    I would like to address a question to Ms. Marquez. In your 
testimony, you stated your support for the 30 percent set-aside 
for supportive housing. I agree with you in one sense, that 
permanent housing is successful in some areas.
    Do you not think that instead of a bureaucracy in 
Washington, D.C., running things, setting arbitrary 
requirements, for example, a brilliant example of a rule made 
by somebody who has never worked in the real world is saying 
that you have to validate 3 times in 21 days that you were some 
place where you might get harmed by going back to prove that, 
or not have the means or know how to verify that.
    Having Washington do it, would it not be better to have 
local areas have that control on the front lines, if there were 
appropriate mechanisms for accountability but not creating a 
bureaucracy that would incur a lot of overhead?
    Ms. Marquez. I guess I would say this, that the evidence 
the research does show is the need is so great that it makes 
sense to set a floor. I would like the opportunity at the local 
level to go beyond that if that is what is needed in my city.
    For instance, it is often said that in Los Angeles City, we 
are housing and more people come from the County into Los 
Angeles City. If there is no requirement that anybody else has 
to build housing and has to use the money for that, then we 
continue to be a magnet.
    I need to be able in my region to make sure that everyone 
is taking on their fair share of what is going on. It is for 
that reason that I would support a floor.
    It is also true from the point of view of the family that 
you are speaking of, if you want to extend the definition, to 
make sure that is coming down the pike.
    It is because it is a significant issue. I would suggest 
perhaps that what you are looking at in the National Affordable 
Housing Trust Fund, that might be a place to take a look at the 
issues of these families. They need affordable housing, not 
necessarily the subset of permanent supportive housing that has 
rich services that they do not need.
    Mr. Davis of Kentucky. For example, if what you are talking 
about is effective in Los Angeles, and that is great, you have 
a Continuum of Care, the ability to manage that. You have local 
resources. I come back to the context issue here.
    You have a Federal regulation that may compete with common 
sense. I know that might sound paradoxical in this environment 
that there would be those types of problems.
    I go back to this issue of verification of homelessness. 
The local professional and again somebody here sitting in a 
cubicle 5,000 miles from somebody with difficulties perhaps 
does not realize that good folks working on the ground are 
going to know their neighborhoods like the policemen, they are 
going to know who these people are in many cases, or when they 
come into the system on a localized level, that they can have 
this connectivity.
    Would you agree that having flexibility say, for example, 
in my district, where maybe housing itself is less the issue 
but other Continuum of Care issues are the issue, to not simply 
warehouse the person but help get the problem dealt with or 
help get them back into the economy, that that flexibility 
would be of some value?
    Ms. Marquez. Flexibility is of some value. Of course, when 
we are dealing in local communities, many communities would 
come to the point of view that they do not have a problem with 
housing when in fact they do, and they are happy to transport 
it to other areas.
    That is why, from our point of view, a floor is very 
important.
    Mr. Davis of Kentucky. I will just leave you with one final 
point on that. You had mentioned that you do not support the 
expansion of the definition. I do not think what any of us are 
talking about is a blank check. I think the biggest problem 
with the Federal Government are the silo's that do not work 
effectively together and create problems.
    You can pick any situation whether it is this, national 
security. We have a 21st Century country running on a 1960 
system architecture and it is broken.
    To come back to this, definitions do have tremendous power. 
I know if we are going to think in the 1960 sense, then I 
perhaps could agree with Ms. Roman, but we are not there. We 
are in an entirely different world.
    You mentioned 13,000 homeless children attending public 
school. That caught my ear. If there are so many homeless 
children or young people who are out of foster care and 
suddenly find themselves pushed out into the economy, why would 
not you support or why do you say you do not support expanding 
that?
    I am asking you to step out of the regulatory framework you 
have to live with for a moment and make a statement in the 
context of the situation.
    Ms. Marquez. I guess I would say this. I do not support it 
in the context of the ``homeless'' definition. In Los Angeles, 
what we have done, because it is a significant issue, we have 
attached that great need to our regular affordable housing 
program, so much so that we are now going to do a set-aside in 
our regular program of 10 percent for families such as those 
that you are discussing. That has everything to do with the 
costs.
    Those families need fewer services, less expensive 
services. The regular affordable housing programs that we fund 
that would be the target of your Affordable Housing Trust Fund, 
if it went national, are those families, and of the 6,000 units 
that the City of Los Angeles has funded as affordable housing, 
nearly 4,500 are targeted specifically to low income families.
    In our city, we have taken care of it because they are not 
homeless in this context. They do not need that richness of 
service. They need other things. We are making sure that they 
are getting it.
    That is why it is in this context only in the ``homeless'' 
definition that we would not support it because what comes with 
that is a heavy burden of services and it is very expensive. We 
think they belong in the regular affordable housing program, 
and that is where we fund it. That is actually the majority of 
our funding, going to those types of families.
    Mr. Davis of Kentucky. With the chairman's indulgence, I 
would just like to clarify one point. The services that are 
being provided by those monies outside of those specifically 
designated as the stereotypical definition of ``homelessness,'' 
are those services provided by the same people to both groups?
    Ms. Marquez. In many situations, they are. For instance, if 
you are going to build a permanent supportive housing unit, 
there is a requirement that many of the services be onsite, 
because of the difficulty of getting folks to access them. You 
have to be right there working them all of the time to get them 
to participate.
    A family like the ones you are concerned with, those are 
folks who have issues but are functioning in the world. They 
can walk 4 blocks to the services center to get what they need.
    In affordable housing what we do, we have a requirement 
that services be provided, but they do not have to be onsite 
because these folks work. They are the working poor. They may 
come from a situation like the one that we have heard here, a 
domestic violence situation, but many of them work, including 
those who are doubled-up, and including those who have lost 
their homes to foreclosure.
    It is not that they are not working. It is that the 
affordability gap between what they earn and the cost of 
housing is too great. They are functioning individuals. They do 
not have dual diagnoses.
    It is for that reason that we would have them in a regular 
affordable housing where they can walk to the services around 
them rather than have the very expensive effort of having to 
have them housed in the building and the capital expense of 
building those units has to include the cost of building out 
all of the space for the services. That is why we distinguish 
it.
    Mr. Davis of Kentucky. Thank you.
    Mr. Green. Thank you. I am told that we will have votes in 
a few minutes. Because we will have votes, we will excuse this 
panel and instruct the next panel to come back at 1:30 or after 
the votes have been completed, whichever is later. You do not 
have to come back before 1:30.
    We look forward to seeing you at that time. You are excused 
until 1:30 or after the next series of votes.
    [Recess]
    Mr. Green. Friends, we would like to call the meeting to 
order at this time and proceed with our last panel. We would 
like to thank you for being so patient. We assure you that we 
try to get to you as expeditiously as possible. We always seem 
to have votes that will at some point intercede. Please accept 
my apologies on behalf of the entire committee for keeping you 
waiting so long.
    Let me now introduce the members of this panel. If I should 
mispronounce a name, if you will just step right in and help 
me, I would greatly appreciate it.
    We have with us Ms. Dora Gallo, with A Community of Friends 
in Los Angeles.
    Ms. Gallo. That is correct.
    Mr. Green. We have Mr. Moises Loza. He is the executive 
director of the Housing Assistance Council.
    Dr. Ellen Bassuk, an associate professor of psychiatry at 
Harvard University.
    Diane Nilan with HEAR US, in Naperville, Illinois.
    Mrs. Biggert, please forgive me. I am told that we have a 
Representative who would like to say a few words by way of 
introduction, and we will now recognize Mrs. Biggert for this 
purpose.
    Mrs. Biggert. Thank you very much, Mr. Chairman. I would 
like to introduce and welcome to today's hearing a constituent 
and a dear friend of mine from Naperville, Illinois, Ms. Diane 
Nilan.
    Diane has spent over 21 years giving voice to homeless kids 
and their families. She comes to us today in her capacity as 
founder and president of HEAR US, Inc.--Homeless Education 
Awareness Raising in the United States--a nonprofit 
organization to empower homeless children and youth through 
video advocacy and other technologies. I know you will hear 
more about that.
    She has had a distinguished career of public service. She 
has served as manager of emergency shelters, a long time board 
member and officer for the statewide Housing Action Coalition, 
a board member and 9 year president of the Illinois Coalition 
to End Homelessness, and co-founder of the campaign Forget Me 
Not, Kids' Day on Capital Hill, and co-author of several U.S. 
Interagency Council on Homelessness reports.
    She is going to tell you a little bit about this, but in 
2005, she sold her house and car and purchased an RV to travel 
across the country documenting the plights and dreams of 
America's homeless children. She has logged over 20,000 miles 
in just that short time.
    I would like to welcome her here today and look forward to 
her testimony. Thanks.
    Ms. Nilan. Thank you.
    Chairwoman Waters. Thank you very much.
    From Los Angeles, we have Ms. Dora Gallo, A Community of 
Friends, Los Angeles. I want to thank Ms. Gallo for joining us. 
I and my staff were fortunate enough to be able to visit 
several of the 33 buildings that A Community of Friends has 
developed and operates in the Los Angeles area. We were very 
impressed at the quality of both the housing and the services 
delivered to the poor, often formerly homeless, disabled 
tenants of the projects.
    I would like to see this subcommittee do all we can do to 
make sure that the production pipeline to this organization and 
others like it across the country are as robust as possible.
    We also have Ms. Nancy Carter, the National Alliance for 
the Mentally Ill, Urban Los Angeles. I very much appreciate the 
work that Ms. Carter, whom I have long known, has undertaken on 
behalf of the National Alliance for the Mentally Ill, Urban Los 
Angeles Chapter.
    I know that the testimony she will provide today will be 
invaluable to the subcommittee as we consider our actions 
regarding how the McKinney-Vento program will affect the 
severely and persistently mentally ill who live in shelters and 
on the streets in Los Angeles and nationwide.
    Also, Dr. Martha Burt, Ph.D., senior principal researcher, 
Urban Institute.
    We will start with Ms. Dora Gallo.

 STATEMENT OF DORA GALLO, CHIEF EXECUTIVE OFFICER, A COMMUNITY 
                    OF FRIENDS, LOS ANGELES

    Ms. Gallo. Thank you, Madam Chairwoman, and Ranking Member 
Capito, for the opportunity to provide testimony to the 
subcommittee. My name is Dora Gallo and I am the chief 
executive officer of A Community of Friends.
    We are a nonprofit developer in Los Angeles County. As a 
practitioner, I can tell you firsthand how important McKinney-
Vento funding has been to our efforts to end homelessness for 
individuals and families with special needs.
    We are thrilled to see reauthorizing legislation proposed 
and a commitment to enact legislation that encompasses the best 
provisions of H.R. 840 and Senate Bill 1518.
    The McKinney-Vento Act is unique, unlike other State, 
local, and Federal sources of funding, at least in Los Angeles 
County, the McKinney-Vento Act is the only source of funding 
that encompasses all three elements of permanent supportive 
housing, operating, construction, and services.
    An award of McKinney funds from SHP, Shelter + Care, or SRO 
rehab allows ACOF and other developers to leverage millions of 
dollars in other funding, particularly in construction.
    Therefore, it should come as no surprise that our 
organization supports the set-aside of 30 percent of McKinney 
funds for permanent supportive housing for people with 
disabilities.
    One concern that we wish to convey to you, however, is a 
provision in Senate Bill 1518 that codifies a policy to limit 
supportive housing projects to 16 units or less, unless it can 
be demonstrated that, ``Local market conditions dictate the 
development of a larger project.''
    No such provision exists in H.R. 840. While we understand 
the policy objective of not concentrating and isolating people 
with disabilities, the definition of ``large'' varies from 
community to community.
    In urban areas where density is often much higher, setting 
a maximum of 16 units per project is too low and imposes an 
unfair burden in urban areas to prove that more than 16 units 
should be allowed.
    ACOF has successfully developed, operated, and maintained 
supportive housing ranging in size from 7 units to 60 units, 
such as the successful 40 unit supportive housing project in 
South Los Angeles that is in Chairwoman Waters' District.
    From a developer's standpoint and a service provider's 
standpoint, there are economies of scale to incorporating more 
than 16 supportive housing units in one building. That is not 
to say that integrating special needs housing is not a good 
policy objective.
    We have two buildings now in operation with mixed 
populations, and we are developing more. Even with a 50 percent 
ratio, the special needs component of our new projects total at 
least 20 units and as high as 35.
    I would like to also point out that it is going to take us 
a very long time to reach the Federal goal of 150,000 units of 
supportive housing if we are only building 16 units at a time.
    Regarding the ``homeless'' definition, we do support the 
expansion of the definition to include those in camp grounds 
and motels for purposes of determining eligibility for the 
community homeless assistance programs, such as the Shelter + 
Care, SHP, and SRO mod rehab, but we do not support the 
expansion of the definition to include those who are doubling 
up or couch surfing.
    Instead, we propose that those who are doubled-up or couch 
surfing be assisted under the new prevention program in the 
McKinney Act proposed in both H.R. 840 and Senate Bill 1518.
    The last critical point we wish to convey is a plea for the 
subcommittee to think carefully about the long term 
sustainability of permanent supportive housing projects, both 
from a financial perspective as it relates to operating, and a 
human perspective, as it relates to services.
    Goals of increasing economic self-sufficiency are admirable 
for individuals and families in supportive housing, but 
experience has shown us that for individuals who have a long 
term chronic disabling condition, it would take many years for 
them to be able to increase their income to a level to enable 
them to move into the private market, either on their own or 
with mainstream resources.
    Therefore, housing must continue to be affordable through 
project based rental assistance. The consequence is 
homelessness again caused by economic instability or poorly 
maintained housing throughout communities.
    Services funding should also be consistently available. As 
a developer, we sometimes find that government agencies and the 
larger provider community do not realize that once a homeless 
person with disabilities is in housing, their job is not over.
    Our onsite service coordinators with a staffing ratio of 
1:25 or 1:30 do not have the capacity due to lack of resources 
to provide intensive services if and when a tenant needs more 
help.
    Nonprofits need to be able to develop long term plans for 
our services program and an opportunity to leverage HUD 
services funding.
    Finally, we would like to express our appreciation to the 
committee for considering clean up provisions in both bills, 
which is itemized in my written testimony and referred to by 
Mercedes Marquez in the Housing Department.
    A Community of Friends applauds the subcommittee for your 
leadership in putting best practices, lessons learned, into 
reauthorization legislation for the McKinney-Vento program.
    Whatever final version you adopt, this legislation will 
have a tremendous impact on thousands of homeless individuals 
and families throughout the country.
    Thank you to the subcommittee and to Chairwoman Waters for 
holding these hearings and for soliciting our input.
    [The prepared statement of Ms. Gallo can be found on page 
104 of the appendix.]
    Chairwoman Waters. Thank you.
    Mr. Loza?

     STATEMENT OF MOISES LOZA, EXECUTIVE DIRECTOR, HOUSING 
                       ASSISTANCE COUNCIL

    Mr. Loza. Chairwoman Waters, Ranking Member Capito, and 
members of the subcommittee, thank you for inviting the Housing 
Assistance Council to provide testimony on pending legislation 
to reauthorize Federal programs for the homeless.
    My name is Moises Loza, and I am the director of the 
Housing Assistance Council, a national nonprofit dedicated to 
improving housing conditions for low income rural Americans.
    HAC is particularly interested in the resources needed to 
address homelessness effectively in rural areas. Rural 
individuals and families do experience both literal 
homelessness and very precarious housing situations.
    HAC's local partners have often reported and research has 
shown that homeless people in rural areas move from one 
extremely substandard, over crowded and/or cost burdened 
housing situation to another, often doubling or tripling up 
with friends or relatives.
    Over 6 million rural households experience a precarious 
housing condition, threatening their ability to achieve housing 
stability and placing them at risk of homelessness.
    Based on conservative estimates, 9 percent of the homeless 
population lives in rural areas. Many rural communities lack a 
system to meet emergency housing needs and face structural 
issues that limit the creation of these resources in rural 
communities, such as lack of community awareness and support, 
lack of access to services, and lack of data on needs.
    For these reasons, using Federal resources can be difficult 
in rural areas. Because the number of homeless people in a 
given community is often small and congregate shelter may be 
viewed as inappropriate, providers in rural areas have a strong 
incentive to emphasize homelessness prevention and permanent 
re-housing options.
    Despite limitations, some programs, specifically HUD's 
Continuum of Care, have been useful in rural areas. For 
example, the Center for Family Solutions is located in Imperial 
County, the poorest county in California.
    The Center operates two emergency shelters and 14 
transitional shelter apartments for women and their children 
who are victims of domestic violence or who are homeless for 
other reasons.
    Another example is Stop Abusive Family Environments, Inc., 
SAFE, located in McDowell County, West Virginia, which has been 
working for 25 years to break the cycle of violence through a 
social justice approach and combines domestic violence services 
and the provision of transitional housing with permanent 
housing and economic development.
    SAFE operates a 31 unit transitional housing facility for 
victims of domestic violence.
    Both H.R. 840 and Senate Bill 1518 have important 
components that can support the work of rural homeless 
providers and equip them to better serve homeless individuals 
and families in rural areas.
    The bills would consolidate HUD's three main competitive 
homeless programs into one. This would improve rural 
communities' ability to apply for resources. The bills also 
make prevention an eligible activity in rural areas, which is a 
very important part of homeless assistance activities in rural 
communities.
    These common themes would make the McKinney-Vento programs 
more accessible to rural homeless providers.
    The definition of ``homelessness'' used by the Departments 
of Education, Health and Human Services, and Justice, as 
proposed in H.R. 840, would work better in rural communities.
    HAC supports the new rural resource created in Senate Bill 
1518 because it will help local rural organizations to both 
address and prevent homelessness.
    Senate Bill 1518 would target resources to re-housing or 
improving housing conditions to stabilize the housing of 
individuals who are in danger of losing housing, provide a 
simplified funding application that recognizes the capacity 
constraints of rural community organizations, and allow 
successful applicants to use up to 20 percent of their grant 
for capacity building activities.
    HAC also supports the simplified application in Senate Bill 
1518.
    Finally, HAC suggests following a change recommended in 
H.R. 840, allowing local communities to set their own 
priorities for spending McKinney-Vento funds. Communities could 
certainly choose to prioritize chronic homelessness if 
appropriate, but no community would be required to do so.
    Thank you for this opportunity to comment on the bills 
before the subcommittee and on the housing needs of the rural 
homeless. I would be happy to respond to any questions.
    [The prepared statement of Mr. Loza can be found on page 
128 of the appendix.]
    Chairwoman Waters. Thank you.
    Dr. Ellen Bassuk.

  STATEMENT OF ELLEN L. BASSUK, M.D., ASSOCIATE PROFESSOR OF 
  PSYCHIATRY, HARVARD MEDICAL SCHOOL, AND PRESIDENT, NATIONAL 
                 CENTER ON FAMILY HOMELESSNESS

    Dr. Bassuk. Chairwoman Waters, Ranking Member Capito, and 
other distinguished members of the subcommittee, I am honored 
to have the opportunity to speak with you today on behalf of 
the 1.3 million children who are homeless in America each year.
    Thank you for giving a voice to this vulnerable and often 
neglected group.
    As a psychiatrist and president of the National Center on 
Family Homelessness for 20 years, I have witnessed a change in 
the face of homelessness with children and their families now 
comprising 35 to 40 percent of the overall homeless population.
    I have had the privilege of seeing firsthand the spirit of 
homeless children. I have also documented their anguish.
    Homelessness for children is more than the loss of a house. 
It takes away their belongings, reassuring routines, friends, 
and community. Instead of developing a sense of security, trust 
in care givers, and freedom to explore, they learn the world is 
unsafe and that violent things often happen.
    As one homeless teenager described, ``Not only did we lose 
everything, but we were looked at and treated like garbage, 
told we were dirty, no good, our parents were lazy, and should 
get jobs. I remember crying myself to sleep. At times, I still 
do, thinking why us? What did we do to be treated like this?''
    In our work at the National Center, we have learned that 
residential instability, interpersonal violence, and family 
disruption are inextricably linked. In a population based 
longitudinal study we conducted, families moved many times in 
the year before they entered shelter. These moves were not 
positive ones.
    Thirty percent were evicted. Many moved into doubled-up 
situations where they were faced with overcrowding, friends and 
relations who resented their presence, and significant risk of 
physical and sexual abuse.
    Perhaps most shocking is the staggering rates of violence 
in the lives of these families. Over 90 percent of homeless 
mothers have been severely physically or sexually assaulted. 
Almost two-thirds have been violently abused by a male partner.
    Homeless children are exposed to violent events, some many 
times, including adults hitting each other, seeing people shot, 
and even having their own lives threatened.
    Homelessness is marked by family separation. Almost a 
quarter of homeless children have lived apart from their 
immediate family, with 12 percent placed in foster care 
compared to just 1 percent of other children.
    These separations may interfere with caring attachments 
between a parent and child leading to behavioral problems and 
the inability to form supportive trusting relationships in 
adulthood.
    The relentless daily stress of homelessness diminishes 
children's physical, emotional, behavioral, and cognitive 
development. They have more acute and chronic medical problems, 
many developmental delays, higher rates of anxiety, depression, 
and behavioral difficulties, and more learning disabilities.
    By age eight, one in three have at least one major 
psychiatric disorder. They struggle in school, with almost 
three-quarters performing below grade level in reading and 
spelling and one-third repeating a grade.
    Within this bleak picture is a ray of hope. In spite of 
their experiences, new data suggest that many homeless children 
are resilient and do well with proper support and clinical 
treatment when needed. Stable permanent supportive housing is 
critical for achieving these positive outcomes.
    This brings us to the work of this subcommittee. We are 
dismayed by the current policy debate that focuses on how to 
allocate scarce resources by pitting one subgroup of homeless 
people against another. All homeless people are deserving of 
help. Any response to homelessness in America requires a 
substantially larger commitment.
    We strongly advocate for adequate funding for McKinney-
Vento to meet the needs of all subgroups experiencing 
homelessness. Until that time, we offer the following 
suggestions.
    First, we urge aligning the HUD definition of 
``homelessness'' with those used by other Federal agencies. 
Families, children and youth who are doubled up or living in 
hotels and motels and do not have a fixed, regular, and 
adequate living situation are homeless.
    These temporary, chaotic situations are emotionally 
damaging to children and place them at an increased risk for 
physical and sexual abuse.
    Second, we support provisions in the HEARTH bill that give 
communities greater flexibility to implement a range of housing 
and service options. This approach will also support better 
strategies, essential for closing the front door onto the 
streets.
    Furthermore, the proliferation of Ten Year Plans to end 
homelessness indicates sufficient community momentum to allay 
our concerns about discrimination against individuals with 
disabilities.
    Finally, if there is to be a set-aside for permanent 
supportive housing, it is essential that eligibility criteria 
be expanded beyond chronically homeless individuals to include 
homeless families and children.
    Their mental health needs are different from those of 
homeless single adults, but some family members, both adults 
and children, are nevertheless disabled enough to warrant 
ongoing services and housing.
    Homeless children do not become homeless by themselves. We 
cannot expect them to stabilize their lives alone. As a 
society, we have a moral responsibility to devise their rescue. 
We must act now before the homeless children of today become 
the chronically homeless adults of tomorrow.
    The HEARTH bill takes important steps in that direction, 
but we are mindful that much more needs to be done.
    Thank you.
    [The prepared statement of Dr. Bassuk can be found on page 
70 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Next we will hear from Ms. Diane Nilan.

   STATEMENT OF DIANE NILAN, PRESIDENT/FOUNDER, HEAR US, INC.

    Ms. Nilan. Thank you very much for the opportunity to 
testify, and my profound gratitude to Congresswoman Judy 
Biggert who has been a tremendous champion for this Nation's 
homeless children and youth.
    I am president and founder of HEAR US, Inc., a national 
nonprofit whose mission is to give voice and visibility to 
homeless kids.
    I sold my home and I have spent the last 2 years traveling 
in my RV across this Nation's back roads, interviewing homeless 
children and families. Our documentary, ``My Own Four Walls,'' 
features these courageous kids talking about their 
homelessness. I speak on their behalf.
    I have worked over 20 years with homeless children and 
adults, 15 years as director of an emergency shelter in 
Illinois, serving up to 150 men, women and children each 
evening.
    My premise is simple. This Nation needs a new more 
promising approach to ensuring people in this country that they 
have a place to call home.
    One family I met was in Las Cruces, New Mexico, and 
included Esperanza, who was crippled by polio all her life, who 
impressively managed to look after her grandkids while her 
daughter, Elizabeth, worked minimum wage jobs.
    When I met them, they were living in a cramped motel room 
prior to moving into a palatial three bedroom handicap 
accessible subsidized apartment. Sadly, their stay was short 
lived. About 7 months after moving, Esperanza died, and the 
family had to leave because they did not require an accessible 
apartment.
    They moved into a friend's cramped house because Las Cruces 
lacks a shelter for families with teenage boys. Elizabeth was 
working two jobs and sleeps on the floor with her three 
youngest children wrapped around her, knowing that their 
situation is precarious, utterly dependent on her friend's 
hospitality and her family's ability to endure this grueling 
arrangement.
    Elizabeth is on a long waiting list for housing, with 
Esperanza, the Spanish word for ``hope'' in her heart.
    Why would families like these, struggling to survive in 
motels, or doubled-up with others, not be defined as homeless?
    I am haunted by an experience from over a decade ago. TJ 
and his mom turned to us for help off and on for years. This 
little guy changed places to live more often than he changed 
clothes. He encountered what is tragically common for kids in 
homeless situations, abuse which caused severe mental harm.
    TJ, a severely disturbed 7-year old, snapped when he faced 
the prospect of living in our cramped family sleeping room. 
After spending hours holding this traumatized little boy to 
keep him from harming himself or others, I had to commit him 
for psychiatric evaluation.
    He and his mom continued to be homeless, with his fragile 
situation deteriorating further at great expense to him, his 
mom, and the community.
    This tragedy may have been prevented had HUD recognized 
this homelessness when he and his mother were bouncing between 
homes prior to entering our shelter, and despite TJ's 
disability, the current HUD definition of ``chronically 
homeless'' does not include families at all, and the Senate's 
bill of ``chronically homelessness'' does not include families 
where the child has a disability. TJ's family would not be 
prioritized for assistance.
    TJ is 18 now, facing a life filled with hardship.
    To narrowly define ``homelessness'' in order to feign a 
successful war on homelessness defies comprehension. To force 
families to move repeatedly before assistance is provided as 
proposed in S. 1518 is short sighted and cruel.
    To proceed with HUD's proposed direction of codifying 
chronic homelessness at the expense of homeless children, youth 
and adults, is fiscally and morally irresponsible.
    Frontline shelter staff across our Nation await the day 
that HUD provides the opportunity for people in all homeless 
situations to receive assistance.
    They long to focus on easing homelessness as it appears in 
their communities, on the street, doubled-up or in motels, 
instead of coping with arbitrary rules and restrictions. It is 
no coincidence that the local service providers who have 
testified at these hearings support an updated definition of 
``homelessness.''
    We need a new approach, much of the blueprint which can be 
found in H.R. 840, the HEARTH Act. Please incorporate the 
HEARTH Act into HUD's new approach to homelessness.
    Thank you very much.
    [The prepared statement of Ms. Nilan can be found on page 
182 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Ms. Carter?

STATEMENT OF NANCY CARTER, NATIONAL ALLIANCE ON MENTAL ILLNESS, 
                       URBAN LOS ANGELES

    Ms. Carter. Hello. My name is Nancy Carter. I must admit I 
am a little choked up after hearing Diane speak.
    I am president and co-founder of NAMI Urban Los Angeles, 
the National Alliance on Mental Illness. Our Urban Los Angeles 
Chapter was formed by five African-American women to reach out 
to families like ourselves who had loved ones who suffered from 
mental illness.
    The stories that Diane is telling you are the stories that 
we live with every single day. We educate. We support. We 
advocate for our own families and for those in the community 
who affect us the most.
    Chairwoman Waters, I am honored to be here, and I thank you 
so much for the invitation. Ms. Capito, thank you as well.
    When I think about family, I think about the fact that I 
was raised in Logan County, West Virginia, where I saw 
homelessness in rural areas every day of my life as a child, 
and then growing up living in Los Angeles, California, and 
raising a son who would one day develop mental illness.
    I think today on this panel that there, but for the grace 
of God, go most of us. In a week, 2 weeks, or a month, so many 
of us can end up homeless and on the streets. For those 
families who have loved ones who suffer from mental illness, 
the risk is even greater, and that is why I am so honored to be 
here today to speak for NAMI, both for my Chapter, Urban Los 
Angeles, and as a National Board member as well.
    Why do we support the McKinney-Vento reauthorization? 
Because it works, because it has been a success. The McKinney-
Vento permanent housing programs are perhaps the most 
successful and effective Federal intervention for people with 
severe mental illness since the Community Mental Health Center 
Act of 1963.
    Shelter + Care and SHP permanent housing have brought 
stability and the opportunity for recovery for thousands upon 
thousands of individuals with the most severe mental illnesses 
and co-occurring disorders.
    These programs break the tragic and costly cycle that too 
many of these individuals experience through chronic 
homelessness, bouncing between the streets, the emergency 
shelters, the emergency rooms, psychiatric hospitals, general 
hospitals, and tragically in Los Angeles, jails and prisons.
    Permanent supportive housing is an effective solution that 
works. It is also cost effective. There is substantial research 
that demonstrates that permanent supportive housing is an 
effective model.
    Formerly homeless residents of supportive housing achieve 
decreases of more than 50 percent in emergency room visits and 
inpatient hospital days, and an 80 percent drop in emergency 
detoxification services. This translates into a savings of 
$16,000 plus in health care costs per unit per year. Eighty 
percent of people who enter supportive housing are still in 
housing a year later.
    The focus of McKinney-Vento must stay on permanent housing 
needs of the most difficult to serve, experiencing chronic 
homelessness.
    In NAMI's view, it is critical that any reauthorization of 
McKinney-Vento retain a Federal minimum requirement for 
permanent housing. This is the hallmark of what has made this 
program successful over the past decade.
    Prior to enactment of the 30 percent set-aside in 1998, 
only 13 percent of McKinney funds went toward permanent 
housing, with the vast majority of funding going toward 
shelters and services. In effect, we were using McKinney 
programs to build a service system that would depend on keeping 
people homeless to sustain itself.
    Investment in permanent supportive housing offers a 
different policy objective, that of ending chronic 
homelessness. NAMI is troubled that the HEARTH Act excludes a 
permanent housing set-aside. We are extremely concerned that 
without a minimum national requirement for development of new 
permanent housing, many local Continuums of Care would face 
strong incentives to spread limited dollars among as many local 
homeless programs as possible.
    It is important to note that people who experience chronic 
homelessness are more likely than other McKinney-Vento eligible 
populations to be categorically excluded or screened out of 
other affordable housing programs.
    These include restrictions on eligibility for both Section 
8 and public housing based on previous history of substance 
abuse and involvement in the criminal justice system.
    Ms. Waters, I am so grateful. NAMI is so grateful to you 
and Chairman Frank. Over the past 9 years, you have achieved 
enormous legislative and policy accomplishments with respect to 
addressing the affordable housing issue.
    The Section 8 voucher reform bill, the GSE and FHA reform 
bills, the Gulf Coast housing bill, and most importantly, the 
National Housing Trust Fund bill, H.R. 2895, passed by the 
House just last week. Thank you. Thank you. Thank you.
    These are the most impressive legislative accomplishments 
for affordable rental housing in a generation.
    We thank you for your leadership in bringing this agenda 
forward. We thank the entire committee for the opportunity of 
NAMI's views to be heard today on the reauthorization of 
McKinney-Vento. We look forward to working with you and the 
subcommittee to produce a bill that will continue to move us 
down the road towards ending chronic homelessness.
    Thank you very much.
    [The prepared statement of Ms. Carter can be found on page 
92 of the appendix.]
    Chairwoman Waters. Thank you.
    Dr. Burt?

 STATEMENT OF MARTHA BURT, PH.D., SENIOR PRINCIPAL RESEARCHER, 
                        URBAN INSTITUTE

    Ms. Burt. Chairwoman Waters, Ranking Member Capito, and 
other members of the subcommittee, thank you for inviting me to 
share my views relating to various provisions of the 
reauthorization of the McKinney-Vento Homeless Assistance Act 
pertaining to the HUD housing programs.
    I have been involved in policy oriented research on 
homeless populations and homeless service systems since 1983, 
and also helped shape the definition of ``homelessness'' that 
now governs the Department of Housing and Urban Development 
programs funded through the Act.
    It is a pleasure for me to be asked to give testimony on 
these matters. I will address my remarks to five issues raised 
in the invitation letter, definitions first.
    I very strongly urge the committee to retain the current 
HUD definitions with a couple of very important exceptions.
    I do believe that for families, if a parent meets the 
definitions, the criteria of chronicity and disability that 
currently allow a single person to be considered chronically 
homeless and to access funds and programs directed to chronic 
homelessness, that family should also have access to permanent 
supportive housing.
    On the other end of the spectrum, I think in certain 
situations, which I mostly have seen happen in rural areas, if 
a family or a person is seeking help, they are clearly homeless 
at the time they seek that help, by HUD's definition, there is 
no place for them to go at the time, and Aunt Susie will take 
them in for 3 days with the clear understanding that 3 days is 
it, they should at the end of those 3 days be considered 
homeless and eligible for the housing.
    At present, they are not or they are interpreted as not 
because people are afraid that HUD will reject a decision to 
continue to serve them.
    My reasons for strongly advocating for retention of current 
HUD definitions for use in HUD programs with the exceptions 
just notes are that if you are going to create a definition, 
the definition has to tell you who is in and who is out. It is 
the only way to tell whether interventions are making a 
difference.
    With the current HUD definition, you can in fact tell who 
is homeless and who is not. You can do surveys that let you do 
estimates of homelessness. I am responsible for the first two 
national ones of those, one from 1987 and one from 1996.
    The Department of Education definition, and I have worked 
with State homeless coordinators and some local homeless 
coordinators around definitions and how they should count, it 
is really not a definition at all, in my opinion. It is so 
loose that it varies greatly from State to State and even from 
school districts within the States.
    I have worked with it and I know it is flawed. It does not 
meet the criterion that I have just stated, which is measurable 
and it has an ability to count.
    Furthermore, the departments that use the broader 
definitions that have been under discussion today are not 
actually charged with ending anybody's homelessness. They are 
charged with serving people who are already homeless. They have 
very narrow statutory responsibilities of keeping people in 
school or treating their health conditions, but they are not 
charged with measuring everybody in the country who could be 
eligible for their services. They are only charged with serving 
the people who walk up to the door, and that is who they report 
to Congress.
    They do not have any responsibilities for telling you that 
they have reduced that number, changed that number, or affected 
that number in any way. HUD does.
    It would be extremely counterproductive to burden HUD with 
a definition that cannot be measured when you are also 
requiring them to report to Congress progress in reducing 
homelessness every year through the annual homeless assessment 
report.
    For doubled-up situations, I would suggest that if there 
has to be any expansion of definition to doubled-up 
populations, it should be limited in very careful ways. One 
possibility is first of all only for those who seek assistance 
from homeless assistance programs, rather than the whole 
universe, and second, to add specific easily documentable 
circumstances of extreme housing instability.
    The allowable circumstances need to be very carefully 
thought out, and I think are better left with special panels to 
determine rather than to be codified into law, as they may 
change.
    Prevention. One of the reasons that Congress has not added 
or included a lot of prevention money in homeless programs in 
the past is that it is easy to waste prevention money.
    There are very, very large populations of very poor 
households, single and family, who could come under the rubric 
of being eligible for homelessness prevention. That was 
certainly true when Congress first passed the McKinney Act. We 
now know more and we are in a better position to target than we 
were 10 years ago. I think support for prevention resources is 
really important, but you really need to think how they are 
going to be used.
    It would be very, very important to require good 
recordkeeping and outcome tracking for at least the first 2 
years of funding any community to do prevention, so that you 
can be sure that you were actually preventing homelessness 
rather than just helping a lot of poor people with their 
housing costs.
    I have complete respect for how much they need that help 
for housing costs, but the homeless programs are not the place 
for them to get it.
    I want to cite to you the case of Massachusetts, increase 
in family homelessness, which has already been mentioned, 
because the way it happened was that the Department of 
Transitional Assistance, through which all families go to get 
homeless assistance, had been really working on prevention in 
exactly the way this law envisions.
    They were actually succeeding. One of the consequences of 
their success was there were fewer families in emergency 
shelters. They emptied the motels and they reduced the number 
of families going into shelters.
    Chairwoman Waters. I have to end your testimony.
    Ms. Burt. Okay. The reason there are more homeless families 
is the legislature was convinced to give everybody the right to 
6 months of shelter, and as a consequence, there is a lot more 
family homelessness now.
    The last thing I really want to say is on the composition 
and authority of local homeless planning bodies in relation to 
Ten Year Plans, please do not specify who should be on them, 
how they should work, what their decision making structure 
should be, because if you do, you will be recording a far 
larger number of them--
    Chairwoman Waters. Thank you very much. You will have to 
submit that for the record.
    Ms. Burt. It is already in my written testimony.
    Chairwoman Waters. Thank you very much for your testimony.
    [The prepared statement of Dr. Burt can be found on page 77 
of the appendix.]
    Chairwoman Waters. With that, having heard all of you, we 
are now going to turn to questions for the panel, and I will 
recognize myself for 5 minutes.
    Let me first tell you how moved I am and how impressed I am 
with all of you and the work that you do. Maybe I should not 
say this, but there are five women at this table, and I wonder 
if this is telling us something about who is doing the work. I 
thank you for being here, Mr. Loza.
    Let me ask Ms. Gallo, you started to talk about what we 
should be doing if we are truly going to talk about permanent 
housing for the homeless, that we must understand that there 
still must be assistance for a long period of time for those 
who reached the level of being able to have their own unit, 
their own place to live, and maybe some income. We cannot 
expect that is going to last forever.
    Would you further explain to us what you were saying?
    Ms. Gallo. Yes, I will be glad to. I was speaking 
specifically of individuals and families whose head of 
household has a chronic mental illness. The residents that we 
house in our buildings fit that description, which means they 
come to us on SSI. They are disabled for purposes of the 
definitions that allow them to access mainstream resources.
    Off the streets with a disabling condition, once we moved 
them into the housing, once we get them stabilized, that is 
when we start to be able to treat the underlying causes of some 
of their issues, whether it is substance abuse, mental illness, 
that takes a long time. If we are successful, we can get people 
back participating in the community. We can get people to 
volunteer, hold part time jobs and even hold full time jobs, 
but that takes a very long time.
    Again, I am talking about people who have been on the 
streets for a long time, and who have a chronic disability. 
That group of individuals is different than for instance a 
homeless person taking advantage of SRO mod rehab, where that 
homeless person does not have a chronic disability.
    I am speaking specifically of the Shelter + Care program 
and people who have a disability.
    Chairwoman Waters. Thank you very much. I have heard a lot 
of discussion about the definition of ``homelessness'' today. I 
think you have helped me to come to grips with what I think was 
said by Dr. Bassuk, and that is we should not be pitting one 
homeless group against another homeless group.
    Certainly, you have made the case as far as I am concerned 
about individuals who find themselves homeless but being able 
to stay with someone for a few days, and then all of a sudden, 
they are not eligible any more. That is just not right.
    Thank you for helping me to understand that a little bit 
better, and for Ms. Nilan, thank you for having dedicated your 
life to documenting homelessness. It seems to me even as we 
explore the changing of the definition or expanding of the 
definition, there are going to be people who are going to fall 
outside of the definition and there needs to be some kind of a 
hotline that can be called to take care of extraordinary cases, 
that do not fit anywhere.
    Your testimony was riveting. Thank you very much.
    With that, I will turn to my colleague, Ms. Capito.
    Mrs. Capito. Thank you, Madam Chairwoman. I, too, echo the 
chairwoman's sentiments, thanking you for your dedication to 
service and to folks who a lot of times cannot advocate or help 
themselves. I am glad to know, Ms. Carter, that you were born 
in West Virginia. I am sorry you went to L.A., however, but you 
are welcome back to West Virginia any time. You know that.
    I have a question. I think maybe I would like to hear, Dr. 
Bassuk, in your clinical life, in talking with homeless 
children and youth, we have heard kind of conflicting opinions 
that if we expand the definition to include children that may 
be doubled up or living in different kinds of situations, that 
the stigmatism of labeling them as homeless has a damaging 
effect. No doubt, to think you were a young person without a 
home, that is a damaging effect.
    You have to weigh, I suppose, the pluses of being labeled 
homeless and being able to access services that we have talked 
about, permanent housing. How do you weigh that in your 
clinical assessment for the well being of a child becoming an 
adult that has been either labeled--is there a real damage 
effect that we should be cognizant of?
    Dr. Bassuk. I think the way I would answer that is 40 
percent of homeless kids are 6 years old or less. Their 
experience of the world is mediated to a large degree by their 
mom's. They are not going to have necessarily a direct 
experience of that labeling.
    The teenagers tend to be humiliated and mortified about 
being homeless, many of the teenagers I have spoken to. In many 
of the shelter systems, they tend to age out after 12 or 13 
years. They go with relatives, families that have split up. In 
certain States, they will not take boys who are 12 years old or 
older because of the domestic violence problem.
    Weighing it, I think it is a small price to pay for 
providing services to a kid who is going to have extreme 
difficulties because of this experience, and everything that 
surrounds it.
    Mrs. Capito. Thank you. I have a tendency to agree with you 
on that. I think the services and availability of services is 
critically important. Those ages, you cannot go back.
    Mr. Loza, you mentioned a project in West Virginia, in 
McDowell County, I believe, that was servicing rural 
homelessness. I understand you have a perspective on that. I 
know you addressed this in your comments.
    Flexibility seems to be the main thing that people in rural 
communities, places I represent, are asking for. How do you 
reflect on that?
    Mr. Loza. We work with a few hundred organizations around 
the country. The testimony is based on what we are hearing from 
them. Rural areas suffer from a dearth of resources and access 
to resources. Flexibility becomes more important for them.
    For example, we heard about some of the great programs in 
Los Angeles. Los Angles has CDBG money. Many rural areas do not 
get CDBG money. Los Angeles has HOME money. Many rural areas do 
not get HOME money. Los Angeles is fortunate enough to have a 
trust fund. Many rural areas do not have access to a trust 
fund.
    The lack of resources and just the difficulty in counting 
and assessing the need and finding where the homeless are 
because they are so invisible makes it necessary for those 
local organizations to have the flexibility, where they are 
able to really deal with their own unique situation in their 
own area.
    For all those reasons, flexibility becomes very, very 
important in rural areas.
    Mrs. Capito. I have one final question. I know we had a 
presenter from the Catholic Charities in the last panel.
    This has been a great debate here on Capital Hill on the 
role of faith based organizations. Somebody who I have not 
asked a question, how do you perceive the role of faith based 
organizations in helping to address the problem of 
homelessness? Ms. Nilan?
    Ms. Nilan. Having run a shelter dependent on faith based 
communities, I think I can answer that. Without faith based 
communities, this Nation would have a far worse homelessness 
problem across the lands.
    That being said, I get very nervous when we start talking 
faith based because I do not think that should be the core of 
how the program is structured. It should be just the reason the 
volunteers are there. I think it is a very strained system.
    Volunteers who have been doing this for 20 years get really 
tired in the fact that our program in Aurora started 20-some 
years ago, and it was an emergency shelter, and ``emergency'' 
tends to mean short term, something that is going to get 
better. We have far exceeded any definition of ``emergency.''
    Mrs. Capito. Thank you, Madam Chairwoman.
    Chairwoman Waters. Mr. Green?
    Mr. Green. I thank you, Madam Chairwoman. I will be brief. 
I thank each of you for your testimony today. It has been very 
insightful.
    Let me ask Ms. Gallo, you mentioned the maximum of 16 units 
per project and you expressed your concern. Tell me how would 
you have this language be modified?
    Ms. Gallo. I am not exactly sure how it got into current 
HUD policy. It is a policy. It is in the current applications 
where every single time we do a project, we are an affordable 
housing developer, so we do projects and we do permanent 
supportive housing projects, we have to justify every single 
time, proving market conditions.
    The suggestion I have is either if for some reason there is 
a desire to have a limit, that you raise that threshold to 25, 
35 units, something that makes more sense for urban areas, so 
that urban areas do not always have to justify that number.
    I am aware of a project apparently in Louisiana where they 
did 35 units. I am sure they must have had to justify how they 
needed to go above 16.
    The number needs to be higher--I do not know what that 
floor is--or eliminated, not have a floor at all, and not put 
that as a requirement. Let the local conditions of the 
particular community decide what is the appropriate size for a 
project.
    Most municipal governments have zoning regulations as well, 
which governs that.
    I would suggest that either there not be a number in there 
or raise that threshold substantially. It needs to make sense 
as to why we have to have a justification.
    Mr. Green. Let me see if Mr. Loza has a quick comment on 
it.
    Mr. Loza. Again, getting back to the flexibility issue as 
Ms. Capito raised, the localities need to have some input into 
what floors or maximums are. The problem we have always faced 
in rural areas is that when you have those floors, they are 
automatically eliminated because we just do not have the scale 
or the population size that would make sense with floors on 
development size.
    Mr. Green. Thank you. Moving to another topic quickly. We 
have a debate here about citizenship and resources being 
accorded persons who are not citizens.
    My assumption is that everyone would agree that at an 
emergency shelter, we should not require citizenship at an 
emergency shelter. If I am incorrect, please raise your hand, 
at an emergency shelter. Does anyone differ with that 
proposition?
    [No response]
    Mr. Green. If we start to require citizenship, and my 
suspicion is there will be someone who will think that we 
should, and I respect the position, I just want to get some 
intelligence from people who are actually on the ground, who 
know what is going on, what will be the impact of requiring 
citizenship before persons can receive shelter who are 
homeless?
    Would someone care to give me a statement on it, please, 
and I will leave it to you to decide. Ms. Burt?
    Ms. Burt. I am not on the ground, so to speak, but I think 
you will harm far more people who are citizens than who are not 
because one of the basic problems of people who are homeless is 
documentation, and if you start requiring for everybody who 
comes into an emergency shelter that they be able to prove that 
they are citizens or resident, permanent residents, I assume 
that is okay, then a lot of people are not going to come and a 
lot of people are going to fail and the burden on the programs 
themselves is going to be much increased.
    Mr. Green. Anyone else care to comment? Ms. Carter?
    Ms. Carter. I think it also ties into faith based. When I 
was growing up, there was very little homelessness because we 
took care of each other. There was no term as ``couch surfing'' 
or ``doubling up.'' We doubled-up as families, because that is 
what was required of us.
    We were our brother's keepers. It seems over time we have 
lost that. If we are truly a faith-based nation, then we must 
be our brother's keepers and we cannot separate out those who 
have a card and those who do not have a card.
    People who are suffering are people who are suffering.
    Mr. Green. Thank you. I yield back, Madam Chairwoman.
    Chairwoman Waters. Thank you very much. Mrs. Biggert?
    Mrs. Biggert. Thank you, Madam Chairwoman. I would like to 
submit, without objection, a letter from 44 organizations 
starting with Alliance for Excellence in Education down to 
Youth Service of America, and the 42 in between, concerning the 
definition of ``homelessness.''
    Chairwoman Waters. Without objection, so ordered.
    Mrs. Biggert. Thank you. Madam Chairwoman, I would also 
like to note that there are five women down there and one man, 
but there are three women up here and one man.
    [Laughter]
    Mrs. Biggert. My first question is for Ms. Nilan. Some of 
the panelists today have suggested that homeless families 
should have their needs met through mainstream programs such as 
Section 8 and TANF as opposed to the McKinney-Vento program.
    As you have traveled across the country, do you think these 
programs offer real opportunities for homeless families?
    Ms. Nilan. Thank you, Mrs. Biggert, for the opportunity to 
speak to that issue because I would have to say unequivocally 
that the families that I met across the country in non-urban 
areas are so not served by those programs, mainstream 
resources, that it is shameful.
    I have met families who are in motels or staying in 
churches or staying in their cars. I am sorry, but what is 
supposed to be out there is not working. For me to have the 
opportunity to come and say that to this respected committee 
today, I think you need to know that.
    If it were working, I would be here saying you know, what 
you are doing is good, let's keep it up, maybe add to it. It is 
not. It is tragically not working at the expense of the 
children and the families and the teens that are not getting 
the help they need.
    Mrs. Biggert. Thank you. Ms. Gallo, would you have any 
comment on that? I know you had said we should not expand the 
definition of ``homelessness'' to include doubling up. We 
obviously need some alternatives. Would TANF--
    Ms. Gallo. I agree with Ms. Nilan. I think some of the 
existing systems, some of the existing programs in mainstream 
are not working.
    I am not advocating that homeless families not be served 
under the McKinney program at all. We serve several hundred 
children in our buildings, people who are homeless.
    I do support--we did not talk about the chronically 
homeless. I do support expanding that definition to include 
families, whether or not I believe the definition of 
``chronic'' is a relevant definition, that is another matter, 
and that is in my written testimony. You can look at that.
    I do believe families should be served. The doubling up, 
the reason I say that there is another source, it is not 
necessarily because of TANF, it is that most of the families 
that we are talking about who have fallen into homelessness 
have fallen in because of economic circumstances.
    One of the things that I do not think is clear is that both 
legislation talk about a new program, prevention activities, 
which can pay for mortgage assistance, rental assistance, 
security deposits. I am not suggesting that--the program itself 
has not been defined.
    It could be 3 months of mortgage assistance. If a family 
does not have to pay 3 months of mortgage, that can allow them 
to save that money to last them throughout the rest of the 
year.
    I think that for Shelter + Care and SRO mod rehab, we 
should restrict that to the homeless, people who are actually 
homeless and on the streets and in camps, but for prevention 
activities, I think that is where it is most valuable to 
families, to take advantage of those types of activities to be 
funded, which is really new to the McKinney-Vento Act.
    Mrs. Biggert. Thank you. Dr. Burt, and maybe I will come 
back to Ms. Gallo, too, talking about this, but you mentioned 
that the proposed expansion of HUD's definition of 
``homelessness'' including all people living together, but to 
be clear, the U.S. Departments of Education, Health and Human 
Services, and Justice, use the definitions of ``homeless'' and 
include people in doubling-up situations and motel situations 
if the situation is not fixed, regular, and adequate due to 
specific circumstances.
    If I read that definition, it seems to me that we are not 
including two families choosing to live together on a long term 
basis because the rents are high.
    Do you read that differently than I do?
    Ms. Burt. No. I would agree with you, that you are not--
that definition does not include voluntary long term 
arrangements, two sisters and their kids, rent an apartment 
together.
    Mrs. Biggert. You still think doubling up should not be--
    Ms. Burt. I would not in any way disagree with anybody 
about the current inadequacy of mainstream services in two 
different directions. I would totally agree that they do not 
reach homeless people and they do not serve them very well. I 
would totally agree that they do not have the resources to do 
it.
    I would totally agree that we need very much more--I would 
personally like to see the resources to eliminate every worse 
case housing need that stemmed from economic resource issues.
    I think there is a lot of homelessness and a lot of it on 
the family side that is economic in nature, and you can see it 
as the cost of housing goes up, so do the number of families 
that are specifically desperate on the subject of housing, much 
more than you see it on the single side.
    Mrs. Biggert. If I could just interrupt because I am out of 
time, just one question for everybody.
    When we were talking about the disabled and the disabled 
parent and finding housing, do you think the definition of that 
should be changed to include if you have a disabled child? Dr. 
Burt? Rather than just the parent, where they were kicked out 
of the apartment.
    Ms. Burt. That is actually rather hard.
    Mrs. Biggert. I just need a yes or no.
    Ms. Burt. Maybe.
    Mrs. Biggert. Okay, maybe, too. Ms. Carter?
    Ms. Carter. Yes.
    Mrs. Biggert. Ms. Nilan?
    Ms. Nilan. Yes.
    Mrs. Biggert. Dr. Bassuk?
    Dr. Bassuk. Yes.
    Mrs. Biggert. Mr. Loza?
    Mr. Loza. Yes.
    Ms. Gallo. No.
    Mrs. Biggert. It is close. Thank you, Madam Chairwoman. I 
yield back.
    Chairwoman Waters. Thank you very much. That completes the 
hearing for today. I would like to thank all of you who have 
been so patient and who have been so informative and so helpful 
to us as we make decisions about this very important public 
policy. We appreciate your time, your work, and everything that 
you are doing.
    With that, the Chair notes that some members may have 
additional questions for this panel, which they may wish to 
submit in writing. Without objection, the hearing record will 
remain open for 30 days for members to submit written questions 
to these witnesses, and to place their responses in the record.
    This panel is now dismissed and without objection, we 
submit for the record a statement from a group known as Family 
Promise.
    Thank you very much. This hearing is now adjourned.
    [Whereupon, at 2:58 p.m., the hearing was adjourned.]


                            A P P E N D I X



                            October 16, 2007
[GRAPHIC] [TIFF OMITTED] 39908.001

[GRAPHIC] [TIFF OMITTED] 39908.002

[GRAPHIC] [TIFF OMITTED] 39908.003

[GRAPHIC] [TIFF OMITTED] 39908.004

[GRAPHIC] [TIFF OMITTED] 39908.005

[GRAPHIC] [TIFF OMITTED] 39908.006

[GRAPHIC] [TIFF OMITTED] 39908.007

[GRAPHIC] [TIFF OMITTED] 39908.008

[GRAPHIC] [TIFF OMITTED] 39908.009

[GRAPHIC] [TIFF OMITTED] 39908.010

[GRAPHIC] [TIFF OMITTED] 39908.011

[GRAPHIC] [TIFF OMITTED] 39908.012

[GRAPHIC] [TIFF OMITTED] 39908.013

[GRAPHIC] [TIFF OMITTED] 39908.014

[GRAPHIC] [TIFF OMITTED] 39908.015

[GRAPHIC] [TIFF OMITTED] 39908.016

[GRAPHIC] [TIFF OMITTED] 39908.017

[GRAPHIC] [TIFF OMITTED] 39908.018

[GRAPHIC] [TIFF OMITTED] 39908.019

[GRAPHIC] [TIFF OMITTED] 39908.020

[GRAPHIC] [TIFF OMITTED] 39908.021

[GRAPHIC] [TIFF OMITTED] 39908.022

[GRAPHIC] [TIFF OMITTED] 39908.023

[GRAPHIC] [TIFF OMITTED] 39908.024

[GRAPHIC] [TIFF OMITTED] 39908.025

[GRAPHIC] [TIFF OMITTED] 39908.026

[GRAPHIC] [TIFF OMITTED] 39908.027

[GRAPHIC] [TIFF OMITTED] 39908.028

[GRAPHIC] [TIFF OMITTED] 39908.029

[GRAPHIC] [TIFF OMITTED] 39908.030

[GRAPHIC] [TIFF OMITTED] 39908.031

[GRAPHIC] [TIFF OMITTED] 39908.032

[GRAPHIC] [TIFF OMITTED] 39908.033

[GRAPHIC] [TIFF OMITTED] 39908.034

[GRAPHIC] [TIFF OMITTED] 39908.035

[GRAPHIC] [TIFF OMITTED] 39908.036

[GRAPHIC] [TIFF OMITTED] 39908.037

[GRAPHIC] [TIFF OMITTED] 39908.038

[GRAPHIC] [TIFF OMITTED] 39908.039

[GRAPHIC] [TIFF OMITTED] 39908.040

[GRAPHIC] [TIFF OMITTED] 39908.041

[GRAPHIC] [TIFF OMITTED] 39908.042

[GRAPHIC] [TIFF OMITTED] 39908.043

[GRAPHIC] [TIFF OMITTED] 39908.044

[GRAPHIC] [TIFF OMITTED] 39908.045

[GRAPHIC] [TIFF OMITTED] 39908.046

[GRAPHIC] [TIFF OMITTED] 39908.047

[GRAPHIC] [TIFF OMITTED] 39908.048

[GRAPHIC] [TIFF OMITTED] 39908.049

[GRAPHIC] [TIFF OMITTED] 39908.050

[GRAPHIC] [TIFF OMITTED] 39908.051

[GRAPHIC] [TIFF OMITTED] 39908.052

[GRAPHIC] [TIFF OMITTED] 39908.053

[GRAPHIC] [TIFF OMITTED] 39908.054

[GRAPHIC] [TIFF OMITTED] 39908.055

[GRAPHIC] [TIFF OMITTED] 39908.056

[GRAPHIC] [TIFF OMITTED] 39908.057

[GRAPHIC] [TIFF OMITTED] 39908.058

[GRAPHIC] [TIFF OMITTED] 39908.059

[GRAPHIC] [TIFF OMITTED] 39908.060

[GRAPHIC] [TIFF OMITTED] 39908.061

[GRAPHIC] [TIFF OMITTED] 39908.062

[GRAPHIC] [TIFF OMITTED] 39908.063

[GRAPHIC] [TIFF OMITTED] 39908.064

[GRAPHIC] [TIFF OMITTED] 39908.065

[GRAPHIC] [TIFF OMITTED] 39908.066

[GRAPHIC] [TIFF OMITTED] 39908.067

[GRAPHIC] [TIFF OMITTED] 39908.068

[GRAPHIC] [TIFF OMITTED] 39908.069

[GRAPHIC] [TIFF OMITTED] 39908.070

[GRAPHIC] [TIFF OMITTED] 39908.071

[GRAPHIC] [TIFF OMITTED] 39908.072

[GRAPHIC] [TIFF OMITTED] 39908.073

[GRAPHIC] [TIFF OMITTED] 39908.074

[GRAPHIC] [TIFF OMITTED] 39908.075

[GRAPHIC] [TIFF OMITTED] 39908.076

[GRAPHIC] [TIFF OMITTED] 39908.077

[GRAPHIC] [TIFF OMITTED] 39908.078

[GRAPHIC] [TIFF OMITTED] 39908.079

[GRAPHIC] [TIFF OMITTED] 39908.080

[GRAPHIC] [TIFF OMITTED] 39908.081

[GRAPHIC] [TIFF OMITTED] 39908.082

[GRAPHIC] [TIFF OMITTED] 39908.083

[GRAPHIC] [TIFF OMITTED] 39908.084

[GRAPHIC] [TIFF OMITTED] 39908.085

[GRAPHIC] [TIFF OMITTED] 39908.086

[GRAPHIC] [TIFF OMITTED] 39908.087

[GRAPHIC] [TIFF OMITTED] 39908.088

[GRAPHIC] [TIFF OMITTED] 39908.089

[GRAPHIC] [TIFF OMITTED] 39908.090

[GRAPHIC] [TIFF OMITTED] 39908.091

[GRAPHIC] [TIFF OMITTED] 39908.092

[GRAPHIC] [TIFF OMITTED] 39908.093

[GRAPHIC] [TIFF OMITTED] 39908.094

[GRAPHIC] [TIFF OMITTED] 39908.095

[GRAPHIC] [TIFF OMITTED] 39908.096

[GRAPHIC] [TIFF OMITTED] 39908.097

[GRAPHIC] [TIFF OMITTED] 39908.098

[GRAPHIC] [TIFF OMITTED] 39908.099

[GRAPHIC] [TIFF OMITTED] 39908.100

[GRAPHIC] [TIFF OMITTED] 39908.101

[GRAPHIC] [TIFF OMITTED] 39908.102

[GRAPHIC] [TIFF OMITTED] 39908.103

[GRAPHIC] [TIFF OMITTED] 39908.104

[GRAPHIC] [TIFF OMITTED] 39908.105

[GRAPHIC] [TIFF OMITTED] 39908.106

[GRAPHIC] [TIFF OMITTED] 39908.107

[GRAPHIC] [TIFF OMITTED] 39908.108

[GRAPHIC] [TIFF OMITTED] 39908.109

[GRAPHIC] [TIFF OMITTED] 39908.110

[GRAPHIC] [TIFF OMITTED] 39908.111

[GRAPHIC] [TIFF OMITTED] 39908.112

[GRAPHIC] [TIFF OMITTED] 39908.113

[GRAPHIC] [TIFF OMITTED] 39908.114

[GRAPHIC] [TIFF OMITTED] 39908.115

[GRAPHIC] [TIFF OMITTED] 39908.116

[GRAPHIC] [TIFF OMITTED] 39908.117

[GRAPHIC] [TIFF OMITTED] 39908.118

[GRAPHIC] [TIFF OMITTED] 39908.119

[GRAPHIC] [TIFF OMITTED] 39908.120

[GRAPHIC] [TIFF OMITTED] 39908.121

[GRAPHIC] [TIFF OMITTED] 39908.122

[GRAPHIC] [TIFF OMITTED] 39908.123

[GRAPHIC] [TIFF OMITTED] 39908.124

[GRAPHIC] [TIFF OMITTED] 39908.125

[GRAPHIC] [TIFF OMITTED] 39908.126

[GRAPHIC] [TIFF OMITTED] 39908.127

[GRAPHIC] [TIFF OMITTED] 39908.128

[GRAPHIC] [TIFF OMITTED] 39908.129

[GRAPHIC] [TIFF OMITTED] 39908.130

[GRAPHIC] [TIFF OMITTED] 39908.131

[GRAPHIC] [TIFF OMITTED] 39908.132

[GRAPHIC] [TIFF OMITTED] 39908.133

[GRAPHIC] [TIFF OMITTED] 39908.134

[GRAPHIC] [TIFF OMITTED] 39908.135

[GRAPHIC] [TIFF OMITTED] 39908.136

[GRAPHIC] [TIFF OMITTED] 39908.137

[GRAPHIC] [TIFF OMITTED] 39908.138

[GRAPHIC] [TIFF OMITTED] 39908.139

[GRAPHIC] [TIFF OMITTED] 39908.140

[GRAPHIC] [TIFF OMITTED] 39908.141

[GRAPHIC] [TIFF OMITTED] 39908.142

[GRAPHIC] [TIFF OMITTED] 39908.143

[GRAPHIC] [TIFF OMITTED] 39908.148

[GRAPHIC] [TIFF OMITTED] 39908.149

[GRAPHIC] [TIFF OMITTED] 39908.150

[GRAPHIC] [TIFF OMITTED] 39908.151

[GRAPHIC] [TIFF OMITTED] 39908.152

[GRAPHIC] [TIFF OMITTED] 39908.153

[GRAPHIC] [TIFF OMITTED] 39908.154

[GRAPHIC] [TIFF OMITTED] 39908.155

[GRAPHIC] [TIFF OMITTED] 39908.156

[GRAPHIC] [TIFF OMITTED] 39908.157

[GRAPHIC] [TIFF OMITTED] 39908.158

[GRAPHIC] [TIFF OMITTED] 39908.159


</pre></body></html>
